<html>
<title> - [H.A.S.C. No. 113-120] RUSSIAN VIOLATIONS OF THE INF TREATY: AFTER DETECTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 113-120]

                     RUSSIAN VIOLATIONS OF THE INF 
                     TREATY: AFTER DETECTION--WHAT?

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 17, 2014

                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                ___________
                                
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
89-513                        WASHINGTON : 2015                          

______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bddacdd2fddec8cec9d5d8d1cd93ded2d093">[email&#160;protected]</a>  
                                     






                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, July 17, 2014, Russian Violations of the INF Treaty: 
  After Detection--What?.........................................     1

Appendix:

Thursday, July 17, 2014..........................................    25
                              ----------                              

                        THURSDAY, JULY 17, 2014
      RUSSIAN VIOLATIONS OF THE INF TREATY: AFTER DETECTION--WHAT?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Pifer, Ambassador Steven, Director, Arms Control and Non-
  Proliferation Initiative, The Brookings Institution............     5
Rademaker, Stephen G., Bipartisan Policy Center, National 
  Security Project Advisor.......................................     1
Thomas, Jim, Vice President and Director of Studies, Center for 
  Strategic and Budgetary Assessments............................     4

                                APPENDIX

Prepared Statements:

    Pifer, Ambassador Steven.....................................    53
    Rademaker, Stephen G.........................................    31
    Rogers, Hon. Mike............................................    29
    Thomas, Jim..................................................    41

Documents Submitted for the Record:

    Brookings article by Ambassador Pifer........................    71
    Documents for the record submitted by Mr. Rogers.............    74
    Letter with attachments submitted by Mr. Rogers..............   124

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   151
    Mr. Garamendi................................................   156
    Mr. Rogers...................................................   145
    Ms. Sanchez..................................................   154
      RUSSIAN VIOLATIONS OF THE INF TREATY: AFTER DETECTION--WHAT?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Thursday, July 17, 2014.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. I call this hearing of the Strategic Forces 
Subcommittee to order. Thank you for being here today.
    We have a distinguished panel here today to talk about 
Russian violations of the Intermediate-Range Nuclear Forces 
[INF] Treaty and its consequences. I know you have all spent a 
good deal of time preparing your remarks. So it is my practice 
to try to get right to those and our questions for you. So I am 
just going to introduce my prepared statement for the record.
    Our witnesses today are Mr. Stephen Rademaker, national 
security project advisor, Bipartisan Policy Center; Mr. Jim 
Thomas, vice president and director of studies for Center of 
Strategic and Budgetary Assessments; and Ambassador Steven 
Pifer, director of Arms Control and Non-Proliferation 
Initiative at The Brookings Institute.
    With that, I offer the floor to my colleague, the gentleman 
from Tennessee, who is a truly wonderful guy, but a supporter 
of a bad football team. Mr. Jim Cooper, Tennessee.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 29.]
    Mr. Cooper. I thank the gentleman, my friend from Alabama. 
I welcome witnesses. I have no opening statement. I look 
forward to the testimony.
    Mr. Rogers. Well now we will turn to our panel. I would 
like to ask you to summarize your prepared statements in 5 
minutes. The full statement can be offered for the record. So 
without objection we will make that happen.
    Mr. Rademaker, please proceed with your remarks.

 STATEMENT OF STEPHEN G. RADEMAKER, BIPARTISAN POLICY CENTER, 
               NATIONAL SECURITY PROJECT ADVISOR

    Mr. Rademaker. Thank you, Mr. Chairman and Ranking Member 
Cooper. It is a pleasure to be here before you today. I do have 
a prepared statement which I do not propose to read to you. I 
will just summarize it. And I have about 5 minutes, is that 
correct?
    I make a number of key points in my testimony. The first is 
that I do think the INF Treaty historically is a very important 
treaty. It is one that President Reagan achieved over an 
enormous amount of opposition.
    He had to withstand lots of criticism from peace activists 
who basically thought the United States should look the other 
way in the face of intermediate Russian--intermediate-range 
Russian missiles aimed at our forces and our allies in Europe. 
He didn't look the other way.
    He met that threat with U.S. deployments to match the 
Russian deployments. And in the end his vision was vindicated 
because the Russians agreed to mutually eliminate that range of 
missiles on their side and on our side.
    And that was an important accomplishment. And that was very 
reassuring to our allies at the time who had in many cases 
serious domestic political opposition to the U.S. deployment in 
their countries of those missiles.
    One of the points I make is that this treaty today is 
frankly much more important to our allies than to us simply 
because the missiles of this range, the 500 to 5,500 kilometer 
range, deployed on Russian territory as--there are a few 
exceptions, but territorial exceptions or geographic 
exceptions, but as a general matter they can't reach the United 
States. They can only reach the territory of our allies. So 
this is really more important to their security than ours. But 
they are our treaty allies, so their security matters to us.
    I think in the eyes of our allies it remains an important 
treaty. But the next point I make in my testimony is whether 
this treaty regime is likely to survive over the long term is 
open to serious question.
    We have to understand what this treaty does. It imposes an 
obligation on the United States and then four of the successor 
countries to the Soviet Union not to possess this class of 
missile.
    For the United States that is not an enormous problem. But 
for Russia, which is surrounded by other countries that are 
deploying missiles of that range, it is a big problem. And the 
Russians have made that clear consistently for a period of 
about 10 years. They made it clear to me personally when I was 
serving in the U.S. Government as the Assistant Secretary of 
State for Arms Control.
    They feel this is an unfair treaty. Why should China be 
able to have these missiles and not them? Why should North 
Korea and Iran be able to have these kinds of missiles?
    One of the points I would make to them of course was that 
part of the reason that North Korea and Iran have these kinds 
of missiles is because Russia transferred to them the 
technology to produce them. But you know that is a historical 
irony at this point. And maybe the Russians in retrospect wish 
they hadn't done that. But today they are worried about the 
threat of these missiles.
    And looking forward I guess I think over the long term 
there is little likelihood that Russia is going to remain 
inside this treaty regime. And I think the issue that we are 
here today to discuss is symptomatic of that.
    Russia is not committed fundamentally to this treaty. 
Evidently they are testing missiles that would violate the 
treaty. And that testing is itself a violation of the treaty. 
And I would assume that is in preparation for eventual 
deployment and, if they intend to act consistent with the 
treaty, termination by them of the treaty.
    What do we do about this? Well, one of the points I make in 
the treaty is we shouldn't do them any favors. We shouldn't 
reward them for misbehavior.
    And I think for the United States to declare that we are 
pulling out of the treaty in response to what Russia has done 
would actually be welcomed in Moscow because I think they are 
wrestling with the question of how they terminate, how they get 
out from under this treaty.
    We shouldn't make it any easier for them. We should force 
them to take the onus of that, take the international political 
and diplomatic hit for pulling out of the treaty.
    I do go on in some length in my testimony about how I think 
Russia's attitude toward this treaty is symptomatic of their 
larger approach to arms control. I think the Obama 
administration would like the Russians to have a very different 
approach to arms control.
    The administration has a very ambitious arms control 
agenda. Unfortunately they don't have a partner who shares that 
agenda. And I make that point at some length in my testimony.
    But we continue to face the question of what the United 
States should do in response to what Russia is doing if we are 
not going to terminate the treaty. And I lay--at the end of my 
testimony I lay out some suggestions. A couple of them are sort 
of conceptual in nature.
    You know the first one I would say is the Obama 
administration needs to stop worrying about its own arms 
control agenda. It needs to accept the reality of Russia.
    I mean Russia is not committed--Russia does not share 
President Obama's vision of eliminating nuclear weapons from 
the face of the earth. They don't--they are not particularly 
fond of arms control agreements.
    My sense, and it is only a sense, is that the Obama 
administration has not wanted to confront the violations that 
we are here to discuss because they are inconvenient from the 
perspective of trying to advance a broader arms control agenda. 
They might quarrel with that characterization, but I think 
actually that is a fair characterization.
    And one of my first suggestions is that they stop worrying 
about that, stop worrying about their arms control agenda and 
start worrying about protecting this treaty regime and holding 
Russia to its legal obligations. Because if we don't do that, 
you know they will be tempted to violate other legal 
obligations.
    [The prepared statement of Mr. Rademaker can be found in 
the Appendix on page 31.]
    Mr. Rogers. Thank you.
    Mr. Thomas, you are recognized for 5 minutes.

    STATEMENT OF JIM THOMAS, VICE PRESIDENT AND DIRECTOR OF 
    STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Thomas. Good morning, Chairman Rogers and Ranking 
Member Cooper and distinguished members of the committee. Thank 
you for inviting me to testify today.
    After more than 25 years in force, it is an appropriate 
time to take stock of the INF Treaty and assess its continuing 
relevance in a world where Russian compliance is in question, 
China is actively exploiting an intermediate-range missile gap, 
and Iran and North Korea continue to pursue nuclear weapons as 
well as long-range delivery means.
    Reports that Russia is circumventing and/or violating the 
INF Treaty suggest that it may be engaged in arms control 
``salami slicing'' that is slowly undermining the INF Treaty 
through ambiguous infractions rather than exiting the treaty 
through outright abrogation.
    The United States cannot permit Moscow to make a soft exit 
from the INF Treaty while itself remaining a party to the 
treaty in good standing. It must ensure robust monitoring, 
verification, and compliance with the treaty as long as it 
remains in force.
    But the United States must also look beyond an era of 
Eurocentric bilateral U.S.-Russian arms control. It must adopt 
a more multilateral framework consistent with the strategic 
game of rebalancing to the Asia-Pacific region.
    China should figure prominently in discussions about the 
future of the treaty. INF-class ballistic and cruise missiles 
have become a major pillar of China's counter-intervention 
strategy to limit U.S. military freedom of action in the 
western Pacific.
    Beyond China a number of countries like Iran and North 
Korea have amassed small but growing inventories of ballistic 
and cruise missiles that would be proscribed if these nations 
were signatories themselves to the INF Treaty.
    To address these wider global concerns, the United States 
should consider undertaking a latter-day, dual-track approach, 
one that would attempt to update the treaty framework while 
simultaneously creating post INF military options to backstop 
diplomacy and hedge against the possibility that negotiations 
fail.
    First the United States should seek to multilateralize the 
restrictions of the treaty to eliminate or replace substantial 
limits on other countries' intermediate-range missiles. Toward 
this end the United States should consult with allies most at 
risk from the missile forces of China, North Korea, and Iran, 
and enlist them to apply greater pressure on those states to 
join.
    If multilateralization proves unachievable, the United 
States might negotiate with Russia a treaty amendment to allow 
ground-launched conventionally armed missiles with ranges up to 
2,000 kilometers outside Europe to balance the missile arsenals 
of potential adversaries in the Middle East and Asia.
    But ultimately, if the United States is neither able to 
ensure Russia's compliance nor subsequently to multilateralize 
or amend the treaty, it may conclude that INF no longer serves 
its interests. Paradoxically, an American willingness to 
contemplate the possibility of withdraw may increase U.S. 
bargaining leverage in negotiating multilateralization or 
amendment.
    The United States should begin creating military options 
now to backstop diplomacy and ensure the United States can 
negotiate from a position of strength on Russian compliance, 
multilateralization and/or amendment of the treaty, while 
hedging against the failure of these efforts.
    Such options should make credible the prospect of swift 
U.S. deployments of intermediate-range missile forces to reduce 
the decision to deployment cycle. Toward that end, the United 
States should undertake consultations with allies and partners 
to explore contingency forward-basing options for 
conventionally armed intermediate-range missile forces.
    The Department of Defense should undertake studies to begin 
developing options for future INF-class missiles so that it 
could move quickly if a political decision were taken in the 
future to amend or withdraw from the treaty.
    In this context, the U.S. Army might consider developing 
and fielding a small sea-based, that is on barges or ships, 
intermediate-range missile force for experimentation and 
concept development that could later be adapted and brought to 
shore if the United States amended or left the treaty.
    In conclusion, suspected Russian violations of the INF 
Treaty come at a time of great strategic uncertainty for the 
United States on a global basis. While compliance issues must 
be swiftly addressed, the United States should also widen its 
aperture for evaluating the INF Treaty to ensure that it serves 
its broader global interests and security commitments.
    A treaty that bars two nations from pursuing certain 
militarily desirable classes of missiles, while not stopping 
other states, some of whom pose threats towards the United 
States and its allies overseas, from possessing them must be 
constantly reevaluated to determine the tipping point when the 
costs of arms control overtake its benefits. That day may be 
quickly approaching.
    Now is the time to begin contemplating a world beyond the 
INF Treaty, and taking appropriate precautionary steps. 
Paradoxically, doing so may offer the best course to preserving 
the viability of the treaty farther into the future. Thank you.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 41.]
    Mr. Rogers. Thank you.
    Ambassador, you are recognized for 5 minutes.

 STATEMENT OF AMBASSADOR STEVEN PIFER, DIRECTOR, ARMS CONTROL 
  AND NON-PROLIFERATION INITIATIVE, THE BROOKINGS INSTITUTION

    Ambassador Pifer. Mr. Chairman, Ranking Member Cooper, 
distinguished members of the committee, thank you for the 
opportunity to appear today to discuss Russian compliance with 
the Intermediate-Range Nuclear Forces treaty, and how the 
United States should respond if it is determined that Russia 
has violated that agreement. With your permission I have 
submitted a statement for the record and will briefly summarize 
it now.
    I should note at the outset that I do not have access to 
classified information regarding this question, nor do I have 
access to the U.S. Government's deliberations. Absent concrete 
information, any discussion of U.S. policy response to a 
possible Russian treaty violation would invariably be somewhat 
hypothetical.
    The 1987 INF Treaty is a landmark arms control agreement. 
It banned an entire class of U.S. and Soviet land-based 
ballistic and cruise missiles with ranges between 500 and 5,500 
kilometers. It resulted in the elimination of 2,692 U.S. and 
Soviet missiles as well as their associated launchers and other 
equipment.
    Russia is a successor state to the Soviet Union. Recently 
questions have arisen about its compliance with the treaty.
    There appear to be two charges regarding Russian 
violations. Assertions that the Russian RS-26 ballistic missile 
violates the treaty appear to have no basis.
    Under the definitions of the START [Strategic Arms 
Reduction] Treaty, the New START Treaty, and the INF Treaty, 
the RS-26 is a permitted, but limited, ICBM [intercontinental 
ballistic missile]. The reported R-500 cruise missile appears 
to be a more serious concern. But there is little hard 
information and open sources about it.
    A Russian violation of the INF Treaty would be a serious 
matter, as would any treaty violation. If Russia is producing, 
testing and/or deploying new intermediate-range missiles, such 
weapons would, depending on their range and deployment 
location, pose a threat to U.S. allies in Europe and Asia, as 
well as to other countries such as China. They would threaten 
U.S. forward-based forces. Such missiles, however, likely would 
not have the range to reach the United States.
    Maintaining the INF Treaty remains in the U.S. interest. 
America's allies greatly value the agreement. If the U.S. 
Government were to conclude that Russia has violated the 
treaty, it should press Russia to end the violation and come 
back into full compliance using both senior diplomatic channels 
and the special verification commission established by the 
treaty.
    Moreover, Washington should brief Russia's neighbors, both 
in Europe and Asia, on the violation. The goal should be to 
multilateralize the issue. That is to have other countries, the 
ones that would be most directly threatened by a Russian 
intermediate-range missile, press Moscow on the question.
    Washington should strive to make this not just a U.S.-
Russia issue, but a German-Russian, a Chinese-Russian, an 
Italian-Russian issue as well, and so on.
    If Russia has violated the INF Treaty, the United States 
should nevertheless continue to observe the treaty's 
provisions, at least for the near term. U.S. withdrawal from 
the treaty would free Russia from any legal obligation to 
observe the treaty's limits, and would bring no apparent 
advantage to the United States.
    At present the Pentagon has no plans for land-based 
intermediate-range missiles, so a U.S. withdrawal from the 
treaty would leave Russia free to deploy missiles for which the 
United States has no counterpart. Deploying new intermediate-
range missiles would take time and impose a new burden on the 
stretched Defense Department budget.
    Funding a new missile would require drawing funds from 
other accounts such as modernization of strategic nuclear 
forces, missile defense, or conventional weapons systems. 
Absent a specific priority military requirement for U.S. 
intermediate-range missiles, this would not appear to be a wise 
use of scarce resources.
    Moreover, even if the United States were to build 
intermediate-range missiles, they would pose a serious response 
to a Russian treaty violation only if deployed on the territory 
of U.S. allies in Europe or Asia close to Russia. But the 
prospects of NATO [North Atlantic Treaty Organization], Japan, 
or South Korea accepting and welcoming deployment of new U.S. 
intermediate-range missiles on their territory appears to be 
very low.
    Deploying such missiles in the continental United States, 
on the other hand, would make little sense as they could only 
hold targets at risk in the Western Hemisphere.
    While continuing to observe a treaty that another party is 
violating may seem counterintuitive, this is what the Reagan 
administration did during the 1980s following the discovery in 
1983 of the Krasnoyarsk large-phased array radar. That radar 
was a clear violation of the ABM [Anti-Ballistic Missile] 
Treaty.
    The Reagan administration nevertheless pressed the Soviets 
on the violation, but continued to observe the treaty. 
Moreover, the Reagan administration simultaneously continued to 
negotiate new arms control agreements with the Soviets, 
including the INF and START I Treaties. In 1990 the Soviets 
agreed to tear down the radar.
    Mr. Chairman, Representative Cooper, distinguished members 
of the committee, continuing to observe the INF Treaty while 
pressing the compliance issue with Russia and having others do 
so makes sense, at least for the foreseeable future.
    This does not mean that if Russia has wantonly violated the 
treaty the United States should continue to observe it 
indefinitely. But for now there is no compelling interest on 
the American part in withdrawal.
    Thank you.
    [The prepared statement of Ambassador Pifer can be found in 
the Appendix on page 53.]
    Mr. Rogers. Thank each and every one of you. We will now 
turn to questions, and I will start.
    If the New York Times report this past January is correct 
and the Russian INF violations began in 2008, what does this 
tell us about the very foundation of the reset with Russia, Mr. 
Thomas?
    Mr. Thomas. Well, I think everyone here is troubled by the 
potential allegations of violations of the INF Treaty, which as 
all the panelists I think have made clear has even greater 
implications for America's allies overseas than it does for 
ourselves directly.
    And I think that it also has to be connected with the--
across the entire arms control agenda. So in terms of looking 
for new cuts in strategic arms, this is a factor that would 
also have to be taken into account.
    Mr. Rogers. Mr. Rademaker.
    Mr. Rademaker. I think that report, if true, tells us two 
things about Russia. First, as I stated in my testimony, Russia 
has virtually no commitment to the INF Treaty. And in fact they 
appear to be positioning themselves to get out from under it as 
they have--officials from President Putin on down have made 
clear that they are interested in doing.
    Second, and I elaborate on this in my testimony, I think it 
tells us about the fundamental Russian attitude towards arms 
control. They, in their security doctrine these days nuclear 
weapons are more important to them than ever because they see 
themselves surrounded by hostile countries. And they feel that 
on a conventional level they are not able to defend themselves.
    Mr. Rogers. So your impression is there is no reset?
    Mr. Rademaker. In the arms control area I think that is 
right. The New START Treaty is sometimes held out as evidence 
that there is Russian interest in nuclear arms control. But you 
know my assessment of the New START Treaty was basically we 
agreed to legally obligate ourselves to reduce our strategic 
nuclear weapons deployments to the Russian level.
    Which you know we didn't require Russia to make any 
reductions, we just reduced--required ourselves to reduce to 
their level. And you know they resisted taking that.
    They tried to precondition that on additional concessions 
from us in the area of missile defense and conventional global 
strike. So you know they will use arms control to advance their 
interests. But they don't consider one of their interests 
nuclear weapons reductions.
    Mr. Rogers. Okay.
    Should the U.S. be concerned about the new Russian missiles 
like the RS-26 Rubezh, which Russia had tested at intermediate 
range, but Russia is calling an ICBM? Or should we be content 
that Russia promises us that it will agree to count the 
missiles under the New START Treaty. Mr. Thomas.
    Mr. Thomas. Well, I think as Ambassador Pifer acknowledged, 
the RS-26 may not in fact be a violation of the treaty. But it 
certainly should be of concern to the United States and its 
allies given the fact that it could be used at intermediate 
range and therefore would have greater responsiveness and 
shorter time of flight, and the threat that that could pose.
    Mr. Rogers. Okay.
    Russia is said to be preparing to deploy this system in 
2015 in Irkutsk, suggesting that for an intermediate-range 
missile the target is China. Now what does this do to claims 
that Russia is breaking out of the INF due to U.S. missile 
defense. Ambassador.
    Ambassador Pifer. Well, if the Russians were to deploy the 
RS-26 in Irkutsk, first of all it would be an ICBM because it 
was tested in excess of 5,500 kilometers. That could not reach 
the United States. But certainly I think a deployment in 
Irkutsk would suggest very clearly that it is aimed at China, 
and ought to be a concern first and foremost to the Chinese.
    I would make one other point about the RS-26 from just a 
U.S. point of view is of course the RS-26, every one that is 
deployed takes a space under the New START limit and takes a 
space that could be deployed by say an SS-27 or Bulava missile, 
which actually could reach all of the United States.
    Mr. Rogers. Mr. Rademaker.
    Mr. Rademaker. Well, I know my two co-panelists have 
conceded that the RS-26 is not an INF-range missile, but rather 
an ICBM. I guess I would hesitate actually to reach that 
conclusion based on what we know.
    Apparently what we know is that they did fire that missile 
to a range of 5,800 kilometers, which is in excess of the 5,500 
kilometer INF range. But I don't feel that I know enough about 
the nature of that test to be able to say whether that turns it 
into an ICBM.
    You know the basic physics of missiles is that their range 
depends on a combination of the amount of thrust they can 
generate and the weight of the missile. And by adjusting the 
weight, if you reduce the weight you can make it go further.
    Mr. Rogers. So you are saying that there is a loophole in 
the INF Treaty----
    Mr. Rademaker. I mean I think there may well be in this 
case because you know the definition of a ground launch 
ballistic missile under the treaty is that it is capable of--
that it is a weapons delivery vehicle. Now, if--you know if you 
take the warhead off of a missile, it will fly further than if 
it has a warhead on it.
    So it could be that this is a 5,500 kilometer range missile 
with a warhead. Remove the warhead, it will fly further. But an 
ICBM without a warhead, in my opinion, is not an ICBM. It is a 
projectile flying through the air, but it is not an ICBM.
    So I think my co-panelists may have rushed to a conclusion 
here that would require some further study before I would be 
willing to accept that----
    Mr. Rogers. Ambassador.
    Ambassador Pifer. Mr. Chairman, if I could say I think Mr. 
Rademaker is right on the physics.
    Although this is an issue that actually was assessed in the 
U.S. Government back in 1986 and 1987 when one of the questions 
we asked ourselves is if the Soviets sign the INF Treaty and 
get rid of all their SS-20 intermediate-range missiles, how 
would they cover time-urgent targets in Europe, for example air 
bases hosting American nuclear weapons. And the conclusion 
within the U.S. Government was they would take intercontinental 
ballistic missiles and fly those missiles to intermediate 
range.
    So this was sort of a scenario that was envisaged and was 
seen as something that they could do, and was not seen as a 
problem with the INF Treaty.
    Mr. Rogers. Thank you very much. My time is expired.
    Chair recognizes the ranking member.
    Mr. Cooper. Thank you, Mr. Chairman.
    Is there an equivalent forum to this panel in Russia or 
China or another country that would allow the world to see the 
thinking of the foreign policy elites regarding intermediate 
nuclear forces? My guess is there is not, right?
    So the United States unilaterally by having hearings like 
this, although it is probably good for democracy, it might not 
be good for our foreign policy strength because, to the extent 
that you gentlemen would serve in future administrations, they 
would know how you feel about these issues. So right here is 
one hand tied behind our back to some extent.
    Now, we celebrate our open process and we are not ready to 
give that up. But it is an interesting distinction because we 
oppose state capitalist regimes and authoritarian regimes who 
don't have to go through these processes.
    Second, I think Ambassador Pifer made the point most 
clearly. This is essentially a European issue, and to some 
extent a Japanese issue because INF missiles can really only 
threaten those capitals. But that threat is truly startling.
    To have in Russia a weapon that is possibly designed to hit 
London or Paris or Rome or Berlin or Prague or Warsaw, that is 
truly a devastating thing to contemplate. And the fact that 
Europeans are not more engaged in this debate, because this is 
essentially a Reagan-era treaty for their benefit, is an 
amazing thing.
    And you would think that the peoples of Europe would rise 
up and say oh my God, not only is Putin a bad guy in other 
respects, but in regard to destroying our own nations. Why are 
Russian scientists working on things like this?
    Another issue that seems to be important is regardless of 
the physics of missiles, so many of these countries, especially 
like a North Korea or Iran, they are only in the INF space 
because they haven't yet developed the science to do ICBMs. So 
this is kind of a poor man's ICBM.
    And also there is this factor once you have an ICBM you can 
weight it appropriately so that it becomes an INF missile. So 
it is a little bit of a flexible category we are talking about 
here.
    But isn't the fundamental issue that we are dealing with 
here is our precision-guided weapons are so advanced that a lot 
of these nuke issues are kind of poor man's precision-guided 
weapons? Because they can't lob a missile down a smokestack the 
way we can, or at least they haven't been able to do that yet. 
They rely on these more old-fashioned, general purpose, more 
destructive--more broadly destructive weapons.
    So those are some of the issues that I am interested in. 
And the testimony, as excellent as it is, seems to skirt on 
many of these issues. So how do we deal with them more 
directly?
    Mr. Thomas. Sir, if I might just respond on the case of the 
poor man's ICBM. I think that is an accurate assessment as far 
as countries like Iran and North Korea go. But it may not be as 
true when thinking about China.
    China in fact does have increasingly accurate ICBMs. And it 
has developed a highly accurate, very sophisticated IRBM force. 
And so I think that really falls into a different category.
    Mr. Rademaker. And Mr. Cooper, commenting on the same 
point, you know I think I would prefer to look at our precision 
weapons from the opposite perspective, which is to the degree 
we develop them they enable us to rely less on nuclear weapons 
in our military planning. And I think most people consider that 
a positive development for us to rely less on nuclear weapons.
    And I guess I would suggest that most countries that are 
developing nuclear weapons are not doing it because of 
America's precision weapons. It is for other reasons. And even 
if we were not developing precision conventional weapons I 
think their interest in nuclear weapons would remain 
undiminished.
    Ambassador Pifer. Mr. Cooper, I would like to make three 
points. First of all, you are exactly right. I mean the reason 
the United States entered into the INF Treaty was to provide 
security for our allies, to protect them and remove a threat to 
them in form of the SS-20 missile.
    Why have they not been more public about concerns to this? 
My guess is they are waiting for the United States to come to 
some kind of a conclusion and at that point you know they may 
then speak up.
    And that is why I would recommend that if the U.S. 
Government concludes that the treaty has been violated that a 
major focus should be briefing allies, we want to have 
Chancellor Merkel raising this with Mr. Putin. We want to have 
President Xi raising this with Mr. Putin.
    We want to have--you know this is an issue that concerns 
the allies first and foremost. And rather than making it just a 
bilateral issue we are going to make this a multilateral 
question.
    And then finally just a general observation. I think you 
have seen over the last several years the Russian doctrine 
evolve to slightly greater reliance on nuclear weapons. In part 
because they see the advances of the American military has made 
with precision-guided conventional weapons on missile defense.
    And I think their perception is that that gap is not 
growing. That gap is perhaps even increasing. So unfortunately 
over the last few years they have come to place greater 
reliance on nuclear weapons systems.
    Mr. Cooper. Well, on the European question we are pushing 
our allies to increase their defense spending to 2 percent of 
their GDPs [gross domestic products]. We are not probably going 
to succeed in that. So this is a very important issue to 
highlight for Angela Merkel and other European leaders to get 
their heads more in the game.
    So I would not only encourage full NATO briefings, but also 
ways to engage the general public because the world was 
transfixed by sporting events like the World Cup. They are not 
focusing on Mr. Putin and his scientists, you know developing 
weapons that would target their cities, which is a pretty 
devastating thing.
    It is one thing to invade Crimea. It is another thing to 
target London, Paris, Rome, Berlin, cities like that, because 
that is the true implication of these weapons.
    Mr. Rademaker. If I could just comment.
    First, Mr. Cooper, I agree with what Ambassador Pifer said 
about the importance of engaging our allies in this. And I 
guess one of the things that was troubling to me when I read 
the New York Times story was that according to that story the 
Obama administration concluded in late 2011 that there was a 
likely treaty violation and yet they didn't brief our NATO 
allies on it until January of 2014.
    So they let more than 2 years go by before briefing our 
allies. And it is a mystery to me why they would have waited 
that long given that I think we all agree that it is pretty 
important to engage our allies in a campaign of diplomatic 
pressure on the Russians to cease these violations.
    Second, on your comments about the threat to our allies 
from these missiles, I would like to inject into the discussion 
the fact that we also need to be mindful of the Russian 
tactical nuclear weapons that are deployed in Europe. But you 
know the numbers are classified, but I think most estimates are 
that Russia has about a 10-to-1 advantage over NATO in terms of 
the number of tactical nuclear weapons.
    And you combine that with evidently movement toward the 
deployment of these types of missiles, which could deliver 
those tactical nuclear weapons, and I agree with you entirely, 
our allies should be much more alarmed than they are.
    Mr. Cooper. I know my other colleagues have questions and 
they have rung the bells for votes. So I should yield the 
balance of my time.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes the gentleman from--not Arkansas, 
Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. I am not from 
Arkansas, that is for sure. Thank you, Mr. Chairman.
    Mr. Chairman, you know General Breedlove said that a 
weapons capability that violates the INF and that is introduced 
into the greater European landmass is absolutely a tool that 
will have to be dealt with. And he said I will not judge how 
the alliance will choose to act. But I will say that they will 
have to consider what to do about it.
    It is a question that cannot go unanswered. That is his 
basic point here. And if you will grant me just a little 
diplomatic immunity here, Mr. Chairman, we have witnessed this 
President ignore the green movement in Iran. We have witnessed 
him, it appears now, be entering into an agreement with Iran 
that will have a protected protocol for them to enrich uranium.
    We have witnessed him take the side of the Muslim 
Brotherhood in Egypt. We have, we witnessed the President set a 
faulty red line in Syria and failed to secure the embassy in 
Benghazi on the 11th anniversary of 9/11.
    We have witnessed him fail to secure a status of forces 
agreement in Iraq, which is in the midst of falling now in the 
hands of ISIS [Islamic State of Iraq and Syria], one of the 
most deadly terrorist groups we have seen in years. And we are 
now witnessing him, seeing our most vital and cherished ally, 
Israel, feeling abandoned and alone in the world under attack.
    Mr. Cooper. Mr. Chairman.
    Mr. Franks. So my question is, is this administration going 
to call what Russia is doing now a violation of the INF? Do you 
think that they will stand up and say it is a violation?
    And if they do, will they inform the Congress of that fact 
and the American people and our Article 5 NATO allies before 
they inform Russia? Will they stand up in this situation? Or 
will they do as they have done in the litany I have just 
outlined? Mr. Rademaker.
    Mr. Rademaker. Congressman, I think the answer at the 
moment is we don't know.
    Mr. Franks. Well you see, I wouldn't be shocked.
    Mr. Rademaker. I hope they will. Again, according to the 
New York Times they concluded there was a likely violation in 
2011. There have been two Arms Control Compliance Reports 
submitted to the Congress since then, neither of which has 
mentioned this issue.
    Another one was due on April 15th of this year. It may be 
forthcoming soon. And I think that will be an interesting test 
of the question you ask, whether they are prepared to confront 
this in the forthcoming Arms Control Compliance Report.
    Mr. Franks. Well, let me put the question to the entire 
panel here. Is there anyone on the panel that would say that 
they believe that the Russians have violated the INF or have 
not? Mr. Rademaker, do you believe that the Russians at this 
point have in fact violated the INF?
    Mr. Rademaker. Well, I think you know I am like the other 
panelists here. I do not have access to classified information 
so I have to rely on what has been in the news media.
    Assuming what I have read in the news media is true, yes, 
it sounds like a violation, frankly a material breach of the 
obligations that Russia has under the INF Treaty.
    Mr. Franks. Mr. Thomas, what do you think? Has Russia 
violated the INF?
    Mr. Thomas. Sorry. Based on what has been reported already 
in Western reports already, as well as even within Russia's own 
media, there are good reasons to believe that Russia may indeed 
have violated the INF Treaty.
    Mr. Franks. Ambassador, what is your perspective?
    Ambassador Pifer. At this point, not having access to 
classified information, I do not know. Based on what I have 
seen in open sources I do not believe the RS-26 is a violation 
of the INF Treaty. There is a much more serious concern, 
apparently, about the cruise missile question.
    Mr. Franks. Well, I think it is, in my judgment, obvious 
that the Russians have violated the INF. And I would hope this 
President, even given his newfound flexibility after the 
election, would face that directly and bring this to the 
American people and inform Russia and stand up.
    Because these treaties, if there is to be any hope for 
treaties, if we do not abide by them and we do not hold each 
other accountable then the treaty is not worth the paper it is 
written on. And I think it is a big issue, Mr. Chairman. And I 
hope the President would consider the sentiments here.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes another member who is not from 
Arkansas, and my colleague, Mr. Lamborn from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I thank you all for being here. This is a very important 
issue, and I appreciate the perspective each one of you brings 
to this panel and this important discussion.
    Mr. Rademaker, you said in your testimony as well as in 
your written statement that even though we had made gestures to 
the Soviet Union through New START, pretty much unilateral 
because we only came down to the level they were already at for 
the most part, that it hasn't been reciprocated. And they have 
no interest in really going beyond that.
    I am concerned that like you said here, the President has 
called for a further unilateral--what appears to be a 
unilateral reduction in our strategic forces. Are you concerned 
about the unilateral aspect of the U.S. further reduction, or a 
reduction even if it is reciprocated by the Russians given that 
there are other countries not being included like China?
    Mr. Rademaker. Yes, Congressman. I comment on that in my 
prepared testimony.
    As you know, President Obama in his Berlin speech last year 
called for a further one-third reduction in deployed U.S. 
strategic nuclear forces. He indicated in the speech that he 
hoped to negotiate that with Russia.
    And he had in fact dispatched his national security advisor 
to Moscow to try and commence that kind of conversation. The 
Russians, by all indications, were not interested in his 
initiative.
    One of the points I make in my testimony is I think there 
has been some ambiguity about whether, at the end of the day, 
President Obama would be prepared to try to implement that one-
third reduction unilaterally even if Russia did not undertake 
to make the same reduction. And I think the current moment 
would be a good one to eliminate any hope that they may have in 
Moscow that President Obama would do such a thing.
    The combination of what Russia has done in Crimea with the 
violations of the INF Treaty that we are here discussing today, 
to me that provides a useful occasion to close the door to the 
hope that the Russians may have that because of his deep 
commitment to eliminating nuclear weapons President Obama might 
unilaterally----
    Mr. Lamborn. Mr. Rademaker, if our administration had clear 
vision I think that that would be the case. But you listen to 
the litany that Mr. Franks recited.
    And I think this administration and the President in 
particular have rose-colored glasses on. They are overly 
optimistic about how their--how the U.S. example is going to be 
so compelling that other countries will follow it. And yet that 
hasn't been the case. Would you agree with that?
    Mr. Rademaker. Basically yes. I mean I think President 
Obama deeply believes that nuclear weapons are a threat to 
humanity and he would like it to be part of his legacy to 
abolish them, or at least take dramatic action in the direction 
of abolishing them. And I think it is a source of great 
frustration to him that the Russians aren't interested in 
joining him in that effort.
    You know I feel his pain. But you know we can't wish the 
Russians to be different than they are. Maybe one day they will 
be different. But under the current government they have their 
priorities and it is evident what they are.
    So I wish he would be clearer because I think the 
Russians--the Russians, I dealt with them a lot in the arms 
control context. They look for weakness and seek to exploit it. 
And I think they detect President Obama's personal desire to do 
this. And you know why should they negotiate reductions with us 
if they think America is going to give them--give unilateral 
reductions in exchange for nothing?
    So step back and wait for President Obama and his passion 
to eliminate these weapons from the face of the earth to move 
unilaterally. I mean for Russia, from a pure national interest 
point of view, not sharing President Obama's enthusiasm for 
eliminating these weapons, that would be a huge progress for 
them.
    Mr. Lamborn. Thank you. And for any one of you, real 
quickly here, given the fact that China is more powerful than 
ever and growing more powerful, including on the strategic 
level, should we continue in the former mode of just bilateral 
negotiations with us and Russia where China is left out? Or 
should we include them in any future arms control agreements? 
Any one of you. Ambassador.
    Ambassador Pifer. Yes, sir. I think at current point now if 
you look at the total U.S. and Russian nuclear arsenals, each 
of these countries is probably about 10 times the size, 
actually more than 10 times the size of the nuclear arsenals of 
any third country, including China. So at some point if the 
U.S. and Russia continue to come down you have got to bring in 
third countries.
    Mr. Lamborn. Or if they continue to come up.
    Ambassador Pifer. Or if they continue to come up, correct. 
But I think there is still--it would be room for at least one 
more U.S.-Russia reduction before you had to get a more 
complicated issue of third countries.
    If I could come back briefly to the President's proposal in 
Berlin, as I understood the Pentagon is that the Pentagon view 
was that the United States could reduce deployed strategic 
warheads by about one-third from the 1,550 limit without regard 
to a Russian reduction.
    However, every administration comment I have seen publicly 
since last June a year ago has been that they are talking about 
a reciprocal reduction. And my guess is that with the recent 
turn in U.S.-Russian events, I would be astonished that there 
is any expectation in Moscow of a U.S. unilateral nuclear 
reduction at this point.
    Mr. Lamborn. I hope you are right. Thank you.
    Mr. Rogers. Thank you all. We have been called for votes. 
We are only going to have two votes. So we are going to recess 
briefly while we run over and hit those two votes. We should be 
back in about 20 minutes, if you will hang around.
    Thank you.
    [Recess.]
    Mr. Rogers. The hearing is now back--called back to order. 
We do have another member here.
    I appreciate you all waiting around. I know that is awful 
aggravating when they call us for votes and--in the middle of a 
hearing. But it is what it is. But this has been a very 
informative process, and I really appreciate you being here.
    The ranking member has brought to my attention that the 
rules require that members are not allowed to refer to other 
members or the President in derogatory ways during these 
questions. So we would ask everybody to adhere to that and 
maintain a certain decorum in here.
    I would like to recognize the ranking member on that issue 
for a moment.
    Mr. Cooper. Thank you, Mr. Chairman. I checked with the 
parliamentarian during the votes and he pointed out that clause 
2(k) section 4 of rule XI requires that committees be operated 
according to the order and decorum of the House. And I think 
when members ask the chair for immunity in anticipation of out 
of bounds comments they are about to make, and I just heard 
another member eagerly anticipate what he called a rant.
    That doesn't sound like even the members themselves are 
operating--know they are operating out of bounds of order and 
decorum. So I would ask the chair to enforce the rules of the 
House.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman----
    Mr. Turner. Just a second. Mr. Chairman, I have an inquiry.
    If the ranking member is complaining about members saying 
things about a member, and does so by saying something about 
another member, is that a violation?
    Mr. Cooper. I think the House rules talk about naming 
members by name----
    Mr. Turner. So if we do it----
    Mr. Cooper [continuing]. The President by name.
    Mr. Turner. If we do it without maybe saying their name. 
Okay. Great. Well, now that we have that down we will make 
certain we follow that. Thank you.
    Mr. Rogers. Chair now recognizes my friend and colleague, 
the gentleman from Ohio, the former chairman of this 
subcommittee, Mr. Turner, for 5 minutes.
    Mr. Turner. Thank you, Mr. Chair.
    Mr. Pifer, thank you for your language that you have used 
today. It is very informative, and it is very specific. And I 
want to go back to your language.
    A few members ago you were asked the question of whether or 
not Russia was in violation. You first carefully said that you 
do not have access to classified material. And I appreciate 
that distinction.
    And then secondly you said that you do have concerns. And 
that I think is a very careful statement considering the lack 
of access. So it is not saying that there is not a violation. 
It is not saying there is. But it is saying there are concerns. 
And that would be accurate. Right? Okay.
    Mr. Pifer, you are considered an expert on arms control. 
You are director of Arms Control and Non-Proliferation 
Initiative for The Brookings Institution.
    Expert, expertise is based upon knowledge. And I appreciate 
that you have said that you don't have access to classified 
information. And so that does, to some extent, limit your 
expertise or your knowledge. And you cite that you were looking 
to open sources.
    So, for you to be asked a question are they or are they 
not, you have carefully not concluded. Because I mean you would 
agree with me, right, that if you actually concluded whether or 
not Russia was or was not, it would be just frivolous 
speculation. Is that correct?
    Ambassador Pifer. At this point as I said I think that 
there is enough information in open sources about the RS-26 
ballistic missile that my own conclusion is that it is 
consistent with the definition of an ICBM.
    But what I have seen in open sources regarding the cruise 
missile question, which I gather to be the more serious issue, 
there is not yet enough detail to come to a conclusion. But 
certainly if the Russians are testing, producing, or deploying 
a missile within the range band of INF, that would be a 
violation.
    Mr. Turner. But you would agree for you to go further and 
actually conclude would be a frivolous speculation. It would 
not be the careful language that you have had, the frivolous 
speculation. Correct?
    Ambassador Pifer. I am not comfortable making that 
conclusion because I don't have the access to information. That 
is correct.
    Mr. Turner. So if you did conclude it would just be 
frivolous. We wouldn't be able to use the information. We 
wouldn't be able to conclude anything from the information.
    Ambassador Pifer. If I reached that conclusion now based on 
what I know it would be speculative.
    Mr. Turner. Right.
    A year ago on July 2013 you wrote a blog criticizing our 
chairman saying, ``Allegations of Russian Intermediate-Range 
Nuclear Forces Treaty Violations--Where's the beef?''
    Your conclusions today are different than your conclusions 
in this July 2013 op-ed, are they not?
    Ambassador Pifer. That article in July was focused on the 
question of the RS-26 ballistic missile.
    Mr. Turner. Well did your--you are raising issues, though, 
about what the chairman has said. And there is no statement in 
here as to a limitation of what--of which missile he is talking 
of. He has raised concerns about possible Russian treaty 
violations. And you say in there he doesn't specify what the 
violation was. So you can't--your article is not just on that 
missile. It is on the issue of Buck McKeon having concerns.
    Ambassador Pifer. The concern that I raised in that article 
was at the time the public speculation out there was focused on 
the ballistic missile, not the cruise missile.
    Mr. Turner. Well, you can't say that. It says right here 
that he did not specify what the violation was. So you can't 
say that is what it was. I mean in your article--let me put 
this in the record. I will put this in the record.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Turner. I have a question for you about your 
conclusion. You cite NASIC [National Air and Space Intelligence 
Center] in here, which thank you for citing NASIC. They are in 
my district. But I will note from your statement that you don't 
get classified briefings from NASIC.
    You have here though that our chairman is--this is a 
critical compliance assessment you say based on facts and 
evidence, not on allegations that border on frivolous. You say 
that our chairman is being frivolous in having concerns in July 
2013 that there may be treaty violations. But yet today you say 
you have concerns. Do you want to retract this statement about 
our chairman?
    Ambassador Pifer. The article that I wrote a year ago was 
focused on reports out that were focused on the ballistic 
missile, the RS-26.
    Mr. Turner. That is not what this article says. And again 
we will put it in the record. You are criticizing the chairman. 
And you say that he does not specify what the violation was. 
And then you say his concerns are frivolous. You can't be 
saying what his concerns are because you cite in the article 
that you don't know what they are.
    But the thing that I find really interesting is that you 
don't have access to any classified information and you know he 
does. I mean you don't know what he knows. But yet you felt the 
need to write this op-ed.
    So I want to ask you. Surely, because you don't have access 
to classified information, you probably picked up the phone and 
called someone just to check with them before you went on this 
rant in calling our chairman frivolous. I would like to know, 
who did you call in the State Department to just check in on 
this?
    Ambassador Pifer. Congressman, I wrote that article on the 
basis of stories at the time that were focused on the RS-26 
ballistic missile.
    Mr. Turner. Did you call anyone at the State Department and 
say, hey, this letter was a concern. Is anybody working on 
this? Is there anything I should know?
    Ambassador Pifer. I did make one call to somebody----
    Mr. Turner. Who did you call?
    Ambassador Pifer. I called----
    Mr. Turner. And you are in front of Congress, so this is 
one of the ones where you get to be truthful. Who did you call?
    Ambassador Pifer. I called the Deputy Assistant Secretary 
of State, Congressman, and said here is an argument I plan to 
make.
    Mr. Turner. Name?
    Ambassador Pifer. Is it a dumb argument?
    Mr. Turner. Care to give us--you gave us the title.
    Ambassador Pifer. It was Deputy Assistant Secretary Rose.
    Mr. Turner. Thank you so much.
    Ambassador Pifer. Frank Rose.
    Mr. Turner. All right. He misled you, unfortunately.
    Ambassador Pifer. No, because again the conversation I had 
with him was specifically on the RS-26 issue.
    Mr. Rogers. The gentleman's time is expired. We are going 
to have another round in just a minute so we will get back to 
that.
    Chair now recognizes himself for questions.
    How long should the U.S. continue to unilaterally be bound 
by the INF Treaty? We are at present apparently the only party 
complying with the treaty. Do we let this drag on for 6 years? 
In some ways it already, reportedly, is--has drug on too long. 
What do you think, Mr. Rademaker?
    Mr. Rademaker. Mr. Chairman, I say in my statement that I 
don't think we should respond to what we know Russia to have 
done at this point by pulling out of the treaty. I think from a 
Russian perspective that would be more of a reward than a 
punishment.
    Because from my personal dealings with them I know that 
they would very much like to get out from under the treaty. And 
so I think they would welcome a U.S. decision to withdraw 
because that would obviate the need for them to withdraw.
    That said, I suppose we do--we need to be mindful of what 
they are doing. We need to pay close attention. And it could be 
that at some point they step across a line that does jeopardize 
our security. And at that point of course we would have to take 
measures that might include withdrawing from the treaty and 
deploying countermeasures either in the area of missile defense 
or our own INF-range missiles.
    Mr. Rogers. Well, on that point, you know you were a 
lawyer, as I understand it, with the State Department. How 
would you define a difference between a violation and a 
material breach and the consequences of each?
    Mr. Rademaker. Okay. Well, Mr. Chairman, the international 
law on that question is set forth in Article 60 of the Vienna 
Convention on the Law of Treaties. And I can just read you what 
it says. It says ``a material breach of a treaty consists in 
the violation of a provision essential to the accomplishment of 
the object or purpose of the treaty.''
    So you know I think the difference between a material 
breach and--let me put it this way. A violation--the difference 
between a violation that is a material breach and a violation 
that is not a material breach is that one that is a material 
breach is one that violates a provision essential to the 
accomplishment of the object or purpose of the treaty.
    And so then you would have to look at what is the object 
and purpose of the treaty to determine what a material breach 
might be. I think the object and purpose of the INF Treaty is 
fundamentally to forbid the parties to possess or test INF-
range missiles.
    The allegation in the New York Times article was that 
Russia has tested an INF-range treaty. So if that allegation 
were true, I think that would rise at the level of a material 
breach.
    Now I guess I should distinguish between reaching an 
internal legal conclusion that there has been a material breach 
and a decision to declare to the world or confront the other 
side with the accusation of a material breach. If the 
allegations in the New York Times story are true, I think as a 
legal matter there is a material breach.
    What we choose to do on the basis of that information is up 
to us. Again, I mean there is relevant international law on 
this. Just because there has been a material breach does not 
automatically terminate the treaty. It gives the victim of the 
breach the right to terminate the treaty, but it doesn't 
automatically terminate it.
    In other words, it creates a situation where the treaty 
becomes voidable, but not necessarily void.
    Mr. Rogers. Thank you very much.
    Chair now recognizes the ranking member for any additional 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    At some point in the questioning the issue came up about 
when the current administration knew about a possible violation 
of the INF Treaty and what we should have done to notify our 
allies about it.
    It is sometimes true, perhaps not always true that our 
means of detecting a violation is secret. And by revealing the 
knowledge that we have, we might compromise sources and 
methods. And of course no one wants to do that, right?
    So since none of the witnesses have been able to have 
access to classified information we don't really know the 
answer to the question of when revealing a treaty violation 
might compromise our intelligence gathering. So it might be a 
little bit hasty to presume that immediately on suspecting a 
violation we should have immediately made it a big issue. So 
sometimes the only exercise people get is jumping to 
conclusions.
    Now it is--I don't want to jump to conclusions either. But 
it--just like I pointed out earlier that we are the only 
country that really has open forums on discussions like this. 
So that puts us at a disadvantage.
    So let's not put ourselves at further disadvantage by 
establishing a de facto requirement that as soon as you learn 
something you tell everything you know. That would be silly 
because hopefully the purpose of hearings like this is to 
strengthen America, not to weaken America. And I sometimes 
worry that by exposing internal divisions, some of which are 
purely political, that we have the unintended consequence of 
aiding our enemies, not strengthening our own cause.
    I noted in Mr. Pifer's testimony that he pointed out that 
it would be useful for the current administration to revive the 
Special Verification Commission, which apparently hasn't even 
met since 2007, and that might be a useful way. Can you tell me 
the composition of that commission and what purpose 
reinvigorating them might serve?
    Ambassador Pifer. Well, I think in terms of the U.S. 
engagement with the Russians on this issue there are two 
levels. One is the political channels, including at the Cabinet 
level, Secretary Kerry, Secretary Hagel, with their Russian 
counterparts.
    But the INF Treaty specifically established the Special 
Verification Commission. And one of its defined purposes in the 
treaty was to address issues or questions about compliance. So 
that would be where you would get into the technical level 
questions where you want to explore the alleged violation. Ask 
the Russians what is going on and try to get their explanation 
of it.
    Mr. Cooper. Who are the members of the Special Verification 
Commission, just Russians and Americans? It is not--does it 
have European representation?
    Ambassador Pifer. It is a U.S.-Russian commission, which I 
think--and this I am uncertain. The Belarusians, Kazakhstanis, 
and Ukrainians I think also have participation on the Russian 
side. This was a fact that when the Soviet Union collapsed you 
had INF systems in different countries.
    I believe two countries, Turkmenistan and I think 
Uzbekistan, basically said we won't play. They only had one INF 
site that was eliminated on their territory. And then those 
other four countries, though, assumed the Russian obligations. 
So it is the U.S. on one side of the table, and then the 
Russians, Kazakhs, Belarusians, and Ukrainians on the other.
    Typically I think what the United States does though is 
that when there is this kind of group meets, if there are 
issues of importance then we typically brief the allies. There 
are set up channels at NATO to do that.
    But I think you are correct. I think it actually has not 
met since 2003.
    Mr. Cooper. Oh, really, that long a period of time?
    Ambassador Pifer. Well, the treaty basically--all of the 
reductions in the treaty were accomplished by 1991. All of the 
treaty inspections ended in 2001. So I think the mechanism 
remains there.
    It is an indefinite mechanism as the treaty is indefinite. 
But neither side over the last 11 years has called to use it. 
And I think in this case if there are the sorts of concerns 
that are suggested in the New York Times, it would be 
appropriate to activate that mechanism.
    Mr. Cooper. One other aspect of the INF Treaty that hasn't 
been illuminated in this hearing is that it authorizes some 
pretty intrusive inspection mechanisms--inspection mechanisms 
that we apparently found very helpful in terms of inspecting 
Russian sites and talking with scientists and things like that.
    Are those still in place? You noted somewhere in your 
article, I think June 9, 2014, that in one location they were 
still in full force, but perhaps others had atrophied. Are we 
still under the INF Treaty conducting these on-site intrusive 
inspections?
    Ambassador Pifer. No, sir. The INF inspections were--in the 
treaty were to continue for 13 years after entry into force. So 
the last INF inspections ended in 2001.
    Mr. Cooper. Well, there was one site, I am sure I won't 
pronounce the Russian--it seemed like out of habit we still had 
a presence, Votkinsk.
    Ambassador Pifer. Sir, that would be Votkinsk. What 
happened is we had a presence under the INF Treaty at Votkinsk. 
But we also had a presence under START I at Votkinsk.
    Mr. Cooper. So it is under the START I?
    Ambassador Pifer. Right. And the START I Treaty expired in 
2009, yes.
    Mr. Cooper. So our folks are there today, or no longer 
there?
    Ambassador Pifer. They left in 2009.
    Mr. Cooper. Got you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 more minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. Mr. Chairman I 
would just try to make a couple points here.
    Senator Kerry recently stated if we are going to have 
treaties with people we have got to adhere to them. We are not 
going to pass another treaty in the U.S. Senate if our 
colleagues are sitting up here knowing somebody is cheating.
    I guess the first thing I would do, Mr. Rademaker, Mr. 
Thomas, and Ambassador, would you--do you agree with the 
Senator's perspective? Do you agree with his position?
    Mr. Rademaker. You are referring to the recorded comments 
of Senator Kerry when----
    Mr. Franks. Yes.
    Mr. Rademaker [continuing]. When we found this at the 
Foreign Relations Committee? He is certainly more expert on 
what the Senate is prepared to do----
    Mr. Franks. I am not asking for his expertise. I am asking 
for yours.
    Mr. Rademaker. You know I think I agree with his 
observations.
    Mr. Franks. Okay. Mr. Thomas.
    Mr. Thomas. I think we clearly have an interest in ensuring 
adherence to the treaties that we have entered, and making sure 
as long as they are enforced.
    Mr. Franks. I don't mean to be redundant here, but Mr. 
Ambassador, do you think that it is important that we adhere to 
them and----
    Ambassador Pifer. No, adherence to the treaty is absolutely 
important. Although I would point out in the past that although 
there have at times been questions about Russian or Soviet 
observance of the ABM treaty, the Reagan administration went 
ahead and concluded additional treaties.
    Mr. Franks. Well, in response to the Soviet Union's 
violation of that AMB missile treaty, 23 members of the House 
of Representatives, led by Les Aspin, Harry Reid, and Barney 
Frank, that is not exactly the conservative opportunity 
society, wrote that violations of the ABM treaty went to ``the 
heart of arms control process. And adherence to existing 
treaties is a necessity in order for future agreements to be 
possible. And that if this problem is not resolved in a 
satisfactory matter it will have serious consequences for the 
future of arms control and the arms control process.''
    You all think that the majority leader of the Senate at 
that time was correct when he wrote that letter? And is that a 
standard that should apply today?
    I am just trying to be real basic here. I am not trying to 
over--you know, but the bottom line is, it is not a small 
issue. If we don't adhere to our treaties, if we don't enforce 
them, you know. And I just am convinced that we are in the 
process of demonstrating that we are willing to stick by a 
treaty and let our potential opponents go their own way. And I 
think that has profound implications.
    I am afraid that this administration is doing for 
vacillation and provocative weakness what Stonehenge did for 
rocks. And I am concerned that this is sending a message that 
the world over, and that it is at the heart of some of the 
instability in the world.
    If we don't have a clear, clarion message that America is a 
faithful partner to a treaty and requires people to be faithful 
to them, then not only is the treaty process vitiated, but 
ultimately the whole attitude of the world is you can't depend 
on America.
    You know we had the agreement with the Ukraine that if they 
would give up their nuclear weapons that America would protect 
their sovereignty, their physical sovereignty. Russia said the 
same thing.
    Now, Russia might have sort of abrogated that, but we did 
too. And this President didn't even apply some of the sanctions 
that he could have, much less military response.
    And the entire glue of an alliance that holds it together 
is that you believe that you can count on your partners. You 
can count on your allies to be there when you need them. And I 
am afraid that we are just sending this message that America is 
no longer really going to be a committed partner.
    So I am hoping, I am hoping that the three of you in this 
discussion today will elevate this issue. Because in my 
judgment there is no doubt that the Russians have abrogated 
this treaty. And if we have no response, it is not good news 
for our children and future generations.
    And I hope if nothing else comes from this committee that 
we--this particular hearing, that we somehow tell the world 
that there is still an America that you can count on. And right 
now that is not what the world thinks.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. I want to thank the 
witnesses for being here. I do want to announce that today 
Chairman Poe and I have sent a letter to Secretary Kerry to 
tend to this issue and start looking at what we should do about 
these violations.
    Thank all of you. I know it takes a lot of time to prepare 
for these things, and I appreciate your attendance here today. 
It has been very helpful.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 17, 2014

=======================================================================

      

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 17, 2014

=======================================================================
      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 17, 2014

=======================================================================

     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
      
         
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 17, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. How important is it that the U.S. shows the Russian 
Federation that they cannot profit from this violation?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. It's pretty clear that the Russian Federation 
vehemently dislikes U.S. missile defenses and plans for more missile 
defenses. Is that leverage in this case? How so?
    a. If Aegis Ashore can defend against these capabilities, with 
``minor'' modifications according to the Director of the Missile 
Defense Agency, should we be sure that capability is deployed in 
Romania and Poland?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. It's pretty clear that the Russian Federation 
vehemently dislikes U.S. prompt global strike systems planning and 
development. Is that leverage in this case?
    a. Please describe the role of these systems in Asia.
    b. Please describe why you understand DOD wants these systems and 
has a military requirement for them.
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. If the Administration knew about the INF violation 
since 2008, was it obligated to advise Congress of it at the earliest 
opportunity? Could there be a good reason to decide not to share that 
information with the Senate at the time?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. If the Administration has decided to call the INF 
violation a ``violation'' does the Administration owe it to the 
Congress to advise the Congress before it informs Russia? Does it have 
an obligation to share this determination with our Article V NATO 
allies before Russia?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. In a report appearing on the Daily Beast website, it 
was reported that, while serving as Chairman of the Senate Foreign 
Relations Committee, then-Senator John Kerry held a classified hearing 
of his committee on Russia's INF violations. He is reported to have 
stated:
    ``If we're going to have treaties with people, we've got to adhere 
to them . . . We're not going to pass another treaty in the U.S. Senate 
if our colleagues are sitting up here knowing somebody is cheating.''
    Do you agree with Senator Kerry's position?
    a. In response to the Soviet Union's violation of the Anti-
Ballistic Missile Treaty, 23 members of the House of Representatives, 
led by Les Aspin, Harry Reid, and Barney Frank, wrote that violations 
of the ABM treaty went ``to the heart of the arms control process'' and 
that ``adherence to existing treaties is a necessity in order for 
future agreements to be possible'' and that ``[i]f this problem is not 
resolved in a satisfactory manner, it will have serious consequences 
for the future of the arms control process''.
    Was the current majority leader of the Senate correct when he wrote 
that letter? Is that the standard that should apply today?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. How long should the U.S. continue to unilaterally be 
bound by the INF treaty? We are at present, apparently, the only party 
complying with the treaty. Do we let this drag on for 6 years--in some 
ways it already, reportedly, has (according to the New York Times)--
like the Russian violations of CFE did?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. What are the benefits and risks of seeking to 
``multilateralize'' the INF treaty? What are the odds China is willing 
to eliminate its hundreds of intermediate-range ballistic missiles and 
cruise missiles?
    a. Is there a risk to going down this road? Can we be 
diplomatically out-maneuvered by the Russians? Does it risk making 
their violation look legitimate?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Is the INF treaty still relevant for today's security 
environment?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. What about other violations? Russia is known not to be 
complying with the CTBT. Do we need to resolve that too?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Russia is seeking U.S. support for new aircraft and 
sensors under the Open Skies treaty. But, Russia isn't complying with 
that treaty; should we approve those new aircraft and sensors if Russia 
isn't in compliance? Should we use this treaty, which Russia clearly 
values, as leverage to obtain Russian compliance with INF?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Russia got the U.S. to agree to unilateral reductions, 
while Russia is actually building up its nuclear forces under New 
START. Do we need to let Russia know that continued U.S. compliance 
with New START cannot be assured if Russia is going to violate INF and 
threaten our allies?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Should the U.S. be concerned about new Russian 
missiles, like the RS-26 Rubezh, which Russia has tested at 
intermediate-range, but, Russia is calling an ICBM? Or should we be 
content that Russia promises us it will agree to count that missile 
under New START?
    a. Russia is said to be preparing to deploy this system in 2015 in 
Irkutsk, suggestion that, for an intermediate range missile, the target 
is China. What does this do to claims that Russia is breaking out of 
INF due to U.S. missile defense?
    b. Do you believe that there is a loophole in New START and INF 
allowing Russia to develop an IRBM but to call it an ICBM?
    c. If this was known during New START ratification, is there any 
reason to allow Russia to negotiate in this loophole?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Should our allies feel safe and secure because they are 
promising to count these intermediate range missiles as ICBMs? Why or 
why not?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Are ground-launched intermediate range ballistic 
missiles and cruise missiles different than submarine-launched, or air-
launched, missiles of the same type and range? How?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. If you believe in arms control, shouldn't you be the 
most committed to seeing this treaty enforced? To punishing cheating 
and violations in all forms?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. What are some political and economic consequences that 
the President and Congress should impose?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Why is Russia developing and deploying a new ground-
launched cruise missile in violation of the INF Treaty? What are the 
military and/or geopolitical benefits for Russia derived from this new 
intermediate-range missile?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. How important is the continuation of the INF treaty to 
U.S. interests? What would be the positive and/or negative impact from 
its demise? Would there be a significant impact on PGS and other 
planned or existing programs? On balance, should we walk away from the 
treaty?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. Would any of our allies feel sufficiently threatened to 
take compensatory action or would they assume that is solely the 
responsibility of the U.S.?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. The INF treaty is the only treaty the U.S. has ratified 
that has eliminated whole types and classes of nuclear weapons. What is 
the impact to President Obama's legacy if this treaty is ``broken'' on 
his watch?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Rogers. How important is it that the U.S. shows the Russian 
Federation that they cannot profit from this violation?
    Mr. Thomas. It is very important that Russia comply with its treaty 
obligations. Failure on the part of Russia to do so in the case of the 
INF Treaty calls into question the credibility of its other treaty 
commitments, as well as the wisdom of entering into any future arms 
control agreements with it. A muted response to a violation of the INF 
Treaty on the part of the U.S. could embolden Russia to further violate 
the Treaty or assume that it can similarly violate other arms control 
agreements with impunity and potentially endanger the prospects for 
continued strategic stability.
    Mr. Rogers. It's pretty clear that the Russian Federation 
vehemently dislikes U.S. missile defenses and plans for more missile 
defenses. Is that leverage in this case? How so?
    a. If Aegis Ashore can defend against these capabilities, with 
``minor'' modifications according to the Director of the Missile 
Defense Agency, should we be sure that capability is deployed in 
Romania and Poland?
    Mr. Thomas. U.S. plans for enhancing the defense of CONUS, its 
field forces and facilities in Europe, as well as protecting NATO 
allies from ballistic missile attack should move ahead irrespective of 
Russian compliance or non-compliance with the INF Treaty. ``Leverage'' 
implies that a certain capability or action is conditional on something 
else. Pursuit of enhanced missile defense capabilities should be 
unconditional.
    a. I believe that Aegis Ashore should be deployed in Romania and 
Poland irrespective of the status of the INF Treaty or any potential 
capability modifications.
    Mr. Rogers. It's pretty clear that the Russian Federation 
vehemently dislikes U.S. prompt global strike systems planning and 
development. Is that leverage in this case?
    a. Please describe the role of these systems in Asia.
    b. Please describe why you understand DOD wants these systems and 
has a military requirement for them.
    Mr. Thomas. Again, we should make decisions about Prompt Strike on 
the merits of the program, rather than viewing the capability as a 
bargaining chip vis-a-vis Russia regarding the INF Treaty. At the same 
time, demonstrating that the United States has credible military 
options to pursue should the INF Treaty no longer be in force may 
backstop diplomatic efforts to bring Russian back into compliance and/
or modify the Treaty in the future. That would require initiating 
significant research and development efforts to ensure that the United 
States has a capability it would be able to deploy should the treaty 
end up being abrogated.
    a. IRBM-class systems could play a very important role in Asia to 
symmetrically counter China's extant, large arsenal of same-class 
systems.
    b. From the Unclassified version of the Joint Staff Report on 
Conventional Prompt Global Strike, ``[Conventional Prompt Global 
Strike] systems could be employed to strike globally, precisely, and 
rapidly with lethal kinetic effects against high-payoff, time-sensitive 
targets in denied and/or geographically isolated areas when other 
forces are not available, not responsive enough, or not preferred.'' 
These conditions could exist when required to strike targets in one or 
more theaters simultaneously, there is limited or no military presence 
in a region, and/or anti-access/area-denial systems pose high risks 
projecting conventional U.S. forces into those theaters. Prompt, 
extended-range strike systems could mitigate these risks and complicate 
potential adversaries' planning. They could play a crucial role, 
moreover, in deterring multiple countries simultaneously.
    Mr. Rogers. If the Administration knew about the INF violation 
since 2008, was it obligated to advise Congress of it at the earliest 
opportunity? Could there be a good reason to decide not to share that 
information with the Senate at the time?
    Mr. Thomas. I am not privy to the Administration's thinking on 
compliance issues or the considerations that might have influenced the 
timing of its most recent report submission and declaration of a 
Russian INF Treaty violation. My understanding is that the Congress 
requires the submission of a compliance report on an annual basis. 
Current and previous administrations have spotty records on the timely 
submission of compliance reports, but good governance would suggest 
they should provide the basic facts in a timely manner that would 
inform Congressional deliberations, not limited to the INF Treaty.
    Mr. Rogers. If the Administration has decided to call the INF 
violation a ``violation'' does the Administration owe it to the 
Congress to advise the Congress before it informs Russia? Does it have 
an obligation to share this determination with our Article V NATO 
allies before Russia?
    Mr. Thomas. Informing the Congress and U.S. Allies of any 
determination of a treaty violation would be prudent as it would foster 
a unified, coordinated response and increase the pressure that could be 
applied to resolve the violation swiftly and bring all Parties into 
compliance.
    Mr. Rogers. In a report appearing on the Daily Beast website, it 
was reported that, while serving as Chairman of the Senate Foreign 
Relations Committee, then-Senator John Kerry held a classified hearing 
of his committee on Russia's INF violations. He is reported to have 
stated:
    ``If we're going to have treaties with people, we've got to adhere 
to them . . . We're not going to pass another treaty in the U.S. Senate 
if our colleagues are sitting up here knowing somebody is cheating.''
    Do you agree with Senator Kerry's position?
    a. In response to the Soviet Union's violation of the Anti-
Ballistic Missile Treaty, 23 members of the House of Representatives, 
led by Les Aspin, Harry Reid, and Barney Frank, wrote that violations 
of the ABM treaty went ``to the heart of the arms control process'' and 
that ``adherence to existing treaties is a necessity in order for 
future agreements to be possible'' and that ``[i]f this problem is not 
resolved in a satisfactory manner, it will have serious consequences 
for the future of the arms control process''.
    Was the current majority leader of the Senate correct when he wrote 
that letter? Is that the standard that should apply today?
    Mr. Thomas. Yes.
    a. Yes, adherence to existing arms control agreements should weigh 
heavily in contemplating future arms control initiatives, since it 
speaks fundamentally to the necessary political underpinnings of any 
such arrangement.
    Mr. Rogers. How long should the U.S. continue to unilaterally be 
bound by the INF treaty? We are at present, apparently, the only party 
complying with the treaty. Do we let this drag on for 6 years--in some 
ways it already, reportedly, has (according to the New York Times)--
like the Russian violations of CFE did?
    Mr. Thomas. Russian violation of the INF Treaty comes at a time of 
great strategic uncertainty. While compliance issues must be swiftly 
addressed, the United States should also evaluate the INF Treaty in 
broader, global context. A treaty that bars two countries from pursuing 
certain classes of missiles, while imposing no restriction on other 
states--some of which pose serious threats towards the United States 
and its allies--doing the same, must be constantly re-evaluated to 
determine the tipping point when the costs of arms control overtake the 
benefits. That day is quickly approaching. The United States must look 
beyond the INF Treaty and begin taking appropriate precautionary steps. 
Paradoxically, doing so may offer the best course to preserving the 
viability of the treaty farther into the future.
    Mr. Rogers. What are the benefits and risks of seeking to 
``multilateralize'' the INF treaty? What are the odds China is willing 
to eliminate its hundreds of intermediate-range ballistic missiles and 
cruise missiles?
    a. Is there a risk to going down this road? Can we be 
diplomatically out-maneuvered by the Russians? Does it risk making 
their violation look legitimate?
    Mr. Thomas. Multilateralizing the treaty, assuming all signatories 
would come into full compliance and eliminate their INF-class weapons, 
would, in theory, be the best option to safeguard the viability of the 
treaty much farther into the future. Absent efforts to multilateralize 
or otherwise amend it, the treaty will increasingly be at odds with 
broader U.S. and allied interests. Conventional wisdom holds that China 
would never be willing to sign onto the treaty and eliminate its 
inventory of intermediate-range ballistic and cruise missiles. This is 
reminiscent of conventional wisdom that preceded the original INF 
Treaty in the 1980s. Many felt that Russia would never eliminate its 
intermediate-range ballistic and cruise missiles. However, in the face 
of a determined effort by the United States to develop and field INF-
class systems and the willingness of European allies for host forward-
based systems, Russia returned to the negotiations that quickly led to 
the Treaty's endgame. Similarly, if China faced a credible prospect of 
neighboring countries and/or the United States developing and 
eventually deploying such systems, it too might be highly incentivized 
to become of signatory.
    a. The issues should be addressed sequentially. Ideally, the United 
States and Russia should satisfactorily resolve the issues surrounding 
Russian violation of the INF Treaty before taking on the issue of 
multilateralization.
    Mr. Rogers. Is the INF treaty still relevant for today's security 
environment?
    Mr. Thomas. Suspected Russian violations of the INF Treaty come at 
a time of great strategic uncertainty. While compliance issues must be 
swiftly addressed, the United States should also evaluate the INF 
Treaty in broader, global context. A treaty that bars two countries 
from pursuing certain classes of missiles, while imposing no 
restriction on other states--some of which pose serious threats towards 
the United States and its allies--doing the same, must be constantly 
re-evaluated to determine the tipping point when the costs of arms 
control overtake the benefits. That day is quickly approaching. The 
United States must look beyond the INF Treaty and begin taking 
appropriate precautionary steps. Paradoxically, doing so may offer the 
best course to preserving the viability of the treaty farther into the 
future.
    Mr. Rogers. What about other violations? Russia is known not to be 
complying with the CTBT. Do we need to resolve that too?
    Mr. Thomas. In general, turning a blind eye to any treaty violation 
might encourage further violations. All allegations of treaty 
violations should be carefully and fully investigated and resolved.
    Mr. Rogers. Russia is seeking U.S. support for new aircraft and 
sensors under the Open Skies treaty. But, Russia isn't complying with 
that treaty; should we approve those new aircraft and sensors if Russia 
isn't in compliance? Should we use this treaty, which Russia clearly 
values, as leverage to obtain Russian compliance with INF?
    Mr. Thomas. I am unfamiliar with these specific Open Skies issues, 
but consistent with my earlier answers I believe non-compliance issues 
are always serious matters that should logically be resolved prior to 
undertaking new initiatives under existing agreements or contemplating 
new arms control agreements.
    Mr. Rogers. Russia got the U.S. to agree to unilateral reductions, 
while Russia is actually building up its nuclear forces under New 
START. Do we need to let Russia know that continued U.S. compliance 
with New START cannot be assured if Russia is going to violate INF and 
threaten our allies?
    Mr. Thomas. I would expect the United States, just as I would 
expect Russia or any other signatory, to honor binding treaty 
commitments.
    INF violations should be considered carefully and factored into 
consideration of any future arms control initiatives involving Russia.
    Mr. Rogers. Should the U.S. be concerned about new Russian 
missiles, like the RS-26 Rubezh, which Russia has tested at 
intermediate-range, but, Russia is calling an ICBM? Or should we be 
content that Russia promises us it will agree to count that missile 
under New START?
    a. Russia is said to be preparing to deploy this system in 2015 in 
Irkutsk, suggestion that, for an intermediate range missile, the target 
is China. What does this do to claims that Russia is breaking out of 
INF due to U.S. missile defense?
    b. Do you believe that there is a loophole in New START and INF 
allowing Russia to develop an IRBM but to call it an ICBM?
    c. If this was known during New START ratification, is there any 
reason to allow Russia to negotiate in this loophole?
    Mr. Thomas. The development of systems such as the RS-26 at the 
seam between the INF Treaty and New START should be of concern to the 
United States and its allies. Ballistic missiles launched from Russia 
would obviously have shorter time of flight to targets in Europe than 
in North America thereby reducing warning time and the opportunities to 
engage them, which would diminish strategic stability.
    a. If Russia does indeed deploy intermediate-range missiles to 
operating areas from which they could range China, it would suggest it 
views the PRC as a military threat. This is likely only one of a 
variety of factors that would weigh in any Russian decision to exit the 
treaty, which suggests U.S. missile defense deployments are possibly a 
pretext more than a reason for Russian dissatisfaction with the Treaty.
    b. There is no safeguard in New START that would preclude a country 
from firing an ICBM at less than continental ranges.
    c. One of the pitfalls of arms control agreements is that they may 
have unforeseen (or at least not widely appreciated or publicized) 
consequences.
    Mr. Rogers. Should our allies feel safe and secure because they are 
promising to count these intermediate range missiles as ICBMs? Why or 
why not?
    Mr. Thomas. Our allies should be concerned about any capabilities 
that could be deployed and used to target them for short-warning 
nuclear attack.
    Mr. Rogers. Are ground-launched intermediate range ballistic 
missiles and cruise missiles different than submarine-launched, or air-
launched, missiles of the same type and range? How?
    Mr. Thomas. Ground-based missile systems have several advantages 
over submarine and air-launched missile platforms. First, ground-based 
missile platforms do not need to be as sophisticated as their airborne 
and undersea counterparts. This reduces their cost significantly, 
allowing far greater numbers to be constructed at similar cost. Second, 
ground-based systems have survivability advantages. Fixed-placement 
systems can be hardened, while mobile systems can quickly relocate 
after firing and thus present targeting challenges. Third, ground-based 
systems are easier to develop with partner states, which facilitates 
burden sharing. Together, these factors suggest that the proliferation 
of ground-based intermediate-range missile systems are an effective way 
to hold adversary targets at risk, imposing steep costs for relatively 
less investment compared to airborne and undersea systems.
    Mr. Rogers. If you believe in arms control, shouldn't you be the 
most committed to seeing this treaty enforced? To punishing cheating 
and violations in all forms?
    Mr. Thomas. The failure to enforce arms control agreements erodes 
confidence in arms control as a viable national security instrument. It 
is difficult to see why the United States should pursue future arms 
control initiatives with a party that is violating existing agreements.
    Mr. Rogers. What are some political and economic consequences that 
the President and Congress should impose?
    Mr. Thomas. There is a range of political and economic steps that 
could be taken to impose costs on Russia for non-compliance, but they 
will be most effective with the support and active participation of 
like-minded nations. Russian violations of the INF Treaty pose an even 
greater threat to allies overseas than they do to the United States. 
Ideally, U.S. allies would take a far more prominent role in 
confronting Russia. The United States should therefore endeavor to 
ensure that it maintains, and where necessary strengthens, its 
strategic solidarity with its allies around the world.
    Mr. Rogers. Why is Russia developing and deploying a new ground-
launched cruise missile in violation of the INF Treaty? What are the 
military and/or geopolitical benefits for Russia derived from this new 
intermediate-range missile?
    Mr. Thomas. Providing means of delivery for either a conventional 
or nuclear warhead, an intermediate-range GLCM would have benefits for 
Russia in terms of greater accuracy, flight path/survivability, and 
covert deployment.
    Mr. Rogers. How important is the continuation of the INF treaty to 
U.S. interests? What would be the positive and/or negative impact from 
its demise? Would there be a significant impact on PGS and other 
planned or existing programs? On balance, should we walk away from the 
treaty?
    Mr. Thomas. Continuation of the INF Treaty would be important to 
safeguard U.S. interests insofar as it encompasses additional countries 
possessing INF-class systems worldwide. The demise of the treaty could 
have a positive outcome should it allow the United States to develop 
INF-class conventional missiles, should the United States choose to 
field them in significant numbers, and should allies and partners agree 
to host forward-based systems.
    The major downside of exiting the treaty would be the risk of 
horizontal and vertical proliferation of the same systems in ways that 
could threaten our allies.
    Paradoxically, the best ways to bolster the U.S. negotiating 
position to amend the treaty, or to hedge against the treaty's demise, 
are the same: to develop credible IRBM and GLCM options. Before 
abandoning the treaty, the United States would be well-served to 
attempt to adapt and modify the treaty, including in ways to ensure the 
adherence of all parties to the amended requirements, in ways that suit 
U.S. interests. Backstopping such a negotiating effort, the Department 
of Defense should pursue research and development options that would 
make far more credible the threat of the United States fielding a 
robust intermediate-range missile force if the treaty lapsed.
    Mr. Rogers. Would any of our allies feel sufficiently threatened to 
take compensatory action or would they assume that is solely the 
responsibility of the U.S.?
    Mr. Thomas. Our allies' interests are at risk with the Russian INF 
violation. This is not just an issue for the United States. Indeed, 
NATO Secretary General Fogh Rasmussen said on July 30 that ``[the INF 
Treaty] remains a key element of Euro-Atlantic security--one that 
benefits our mutual security and must be preserved.'' U.S. allies 
beyond Europe should also give the issues surrounding intermediate-
range weapons greater attention, as it affects the security and 
interests of allies in multiple theaters.
    One possibility is that in the future, even if the United States 
remained bound by the Treaty, its allies and partners which are not 
parties to the Treaty could independently develop, test and deploy INF-
proscribed systems. One of the United States' distinct advantages over 
its rivals is its portfolio of alliances. Were U.S. allies and partners 
to field IRBMs and GLCMs while Russia and the United States remained 
parties to the Treaty, this could disadvantage Russia and create a 
favorable asymmetry for the United States.
    Mr. Rogers. The INF treaty is the only treaty the U.S. has ratified 
that has eliminated whole types and classes of nuclear weapons. What is 
the impact to President Obama's legacy if this treaty is ``broken'' on 
his watch?
    Mr. Thomas. Irrespective of the historical legacy of the INF 
Treaty, if it is broken due to Russian violations, Moscow should bear 
the fully responsibility for the treaty's demise.
    Mr. Rogers. Do you now believe you were misled by Deputy Assistant 
Secretary of State Frank Rose when he counseled you to write an article 
that has been proven to be at least misleading, and in reality 
inaccurate; and which Mr. Rose knew (or at least should have known) at 
the time to be inaccurate?
    Ambassador Pifer. Mr. Rose did not mislead me, and I do not believe 
that my July 16, 2013 article, ``Allegations of Russian Intermediate-
Range Nuclear Forces Treaty Violations--Where's the Beef?,'' was 
misleading or inaccurate. I wrote ``Where's the Beef'' after reading 
news articles in late June and the first half of July 2013 that 
asserted that the Russian Yars-M ballistic missile (also referred to as 
the RS-26) was a violation of the INF Treaty.
    The articles--see, for example, Bill Gertz's ``Russian Aggression: 
Putin Violating Nuclear Missile Treaty'' in the June 25, 2013 
Washington Free Beacon--asserted that the Yars-M/RS-26 was a violation 
of the INF Treaty because it had been tested to a range of 2000 
kilometers, whereas the INF Treaty bans all ground-launched ballistic 
missiles with ranges between 500 and 5500 kilometers. The Yars-M/RS-26, 
however, had also been tested to a range of 5800 kilometers.
    The 2010 New START Treaty, as the 1991 START I Treaty, defines an 
intercontinental ballistic missile (ICBM) as ``a land-based missile 
with a range in excess of 5500 kilometers,'' while the INF Treaty bans 
ground-launched ballistic missiles with ranges ``in excess of 500 
kilometers'' but ``not in excess of 5500 kilometers.'' My assessment 
thus was that, because the Yars-M/RS-26 had flown in excess of 5500 
kilometers, it was a permitted ICBM, not a ground-launched 
intermediate-range ballistic missile.
    That seemed straightforward to me. When writing ``Where's the 
Beef?,'' I contacted Mr. Rose and asked whether my assessment of the 
Yars-M/RS-26 was correct. He confirmed that my understanding that the 
Yars-M/RS-26 was a permitted ICBM was consistent with the U.S. 
government's view.
    That is the assessment reflected in ``Where's the Beef?'' That 
article dealt solely with the allegation regarding the Yars-M/RS-26 
ballistic missile. At the time when I wrote the article, I was not 
aware of U.S. government concerns about the Russian test of a ground-
launched intermediate-range cruise missile.
    Mr. Rogers. If the article focused on the RS-26 as you say, do you 
think it was incumbent upon DAS Frank Rose to tell you there were other 
INF violations that were of concern so that you did not write such 
allegations were ``frivolous,'' when it turns out they are quite 
substantial, and were substantial at the time, as DAS Frank Rose knew 
(or at least should have known)?
    Ambassador Pifer. The ``Where's the Beef?'' article clearly 
addresses only the allegation that the Yars-M/RS-26 ballistic missile 
was a violation of the INF Treaty. That was the only allegation of a 
Russian INF Treaty violation of which I was aware when I wrote the 
article, and my question to Mr. Rose dealt solely with the Yars-M/RS-26 
ballistic missile.
    Had Mr. Rose volunteered information about the cruise missile 
concern, I certainly would have been interested. However, given what I 
understand to be the classified level at which information regarding 
the cruise missile issue was held at the time, it would have been a 
serious breach of security regulations for him to share it with me.
    Mr. Rogers. Why is the article still up on the Brookings web page? 
In the name of intellectual and academic honesty, shouldn't it be 
rescinded and taken down (or at a minimum updated/corrected)?
    Ambassador Pifer. The ``Where's the Beef?'' article clearly 
addresses only the allegation that the Yars-M/RS-26 ballistic missile 
was a violation of the INF Treaty. I believe that the article's 
conclusion that the Yars-M/RS-26 is a permitted ICBM, not a ground-
launched intermediate-range ballistic missile, remains valid and that 
this allegation of a violation has no basis in the treaty.
    The New York Times carried a story by Michael Gordon on January 29, 
2014, ``U.S. Says Russia Tested Missile, Despite Treaty,'' which 
revealed the U.S. government's concern that Russia had tested a ground-
launched intermediate-range cruise missile in violation of the INF 
Treaty. My articles subsequent to that (which are posted on the 
Brookings web-page) draw a distinction between the allegation regarding 
the Yars-M/RS-26 ballistic missile and the reported violation by the 
testing of a ground-launched intermediate-range cruise missile. See, 
for example, ``The Moscow Missile Mystery: Is Russia Actually Violating 
the INF Treaty?'' in Foreign Policy, January 31, 2014 and ``Don't Scrap 
the INF Treaty'' in The National Interest, June 9, 2014.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. How did the administration deal with the ABM Treaty 
violations, and what was the outcome?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Cooper. How did the administration deal with the ABM Treaty 
violations, and what was the outcome?
    Mr. Thomas. Following the Reagan administration's discovery that 
the Soviet Union's large phased-array radar at Krasnoyarsk violated the 
1972 Anti-Ballistic Missile Treaty, the administration decided not 
allow that violation to affect its broader arms control agenda, even as 
U.S. and Soviet officials worked to resolve the violation. Ultimately, 
under enormous pressure, the Soviet Union granted U.S. inspectors 
access to Krasnoyarsk enabling them to establish beyond doubt that it 
constituted an ABM Treaty violation, which the Soviets finally 
acknowledged. Had the entire arms control process been halted, the 
United States and Soviet Union would not have entered into the INF 
Treaty a few years later. Some have said that the United States should 
bear this incident in mind when considering how the INF Treaty 
violation should affect the broader arms control agenda. Others might 
argue that the situation is different today and requires a different 
approach. Whereas broad trends in the mid-1980s suggested a thawing in 
Soviet-U.S. relations, the opposite appears to be occurring at the 
present time.
    Mr. Cooper. Is the INF treaty of enduring significance, militarily 
or otherwise, to the United States, Russia or NATO and its members? 
Why?
    Ambassador Pifer. The INF Treaty was a landmark arms control 
agreement, resulting in the elimination of nearly 2700 U.S. and Soviet 
missiles, their launchers and other associated equipment. It 
dramatically reduced the nuclear threat to American allies in Europe 
and Asia and was warmly welcomed by those allies, as well as by other 
states.
    The INF Treaty continues to be in the security interest of the 
United States and its allies, as it constrains the Russian nuclear 
threat. This is particularly the case as there are no plans and, as far 
as I know, no serious U.S. military requirement for ground-launched 
intermediate-range ballistic or cruise missiles. (U.S. strategic 
nuclear forces, U.S. dual-capable aircraft and nuclear bombs deployed 
in Europe, and the ability to forward deploy U.S. dual-capable aircraft 
and nuclear bombs to the Western Pacific currently provide the nuclear 
umbrella to U.S. allies in Europe and Asia.)
    Were the INF Treaty to cease to be in force, I would expect U.S. 
allies in Europe and Asia to be concerned that Russia would then be 
free to build without any constraint ground-launched intermediate-range 
ballistic and cruise missiles that could directly threaten their 
territory. Such missiles would also pose a direct threat to U.S. forces 
deployed forward in Europe and Asia.
    At several points over the past decade, senior Russian officials 
have publicly questioned whether continued adherence to the INF Treaty 
was in Russia's interest. They have noted that the treaty's ban applies 
only to Russia and the United States (actually, it also applies to 
Belarus, Kazakhstan and Ukraine). They have expressed concern that 
other countries near Russia possess or are developing intermediate-
range missiles. Russia thus may hold a different view of the 
significance of the INF Treaty than do the United States and U.S. 
allies.
    Mr. Cooper. If Russia is found to be in violation of the INF treaty 
in the upcoming report, what should the U.S. do?
    a. What are our options for bringing Russia back into compliance 
with the treaty? [Question #51, for cross-reference.)
    Ambassador Pifer. The U.S. government has concluded that Russia 
violated the INF Treaty by testing a prohibited ground-launched 
intermediate-range cruise missile. This is a serious matter. The U.S. 
government should take several measures in response, with the objective 
of having Russia return to full compliance with the treaty:
    First, the administration should use opportunities in diplomatic 
channels, including meetings at the cabinet/ministerial-level, to raise 
the question with Russian officials and press them to resolve U.S. 
concerns and come back into full compliance with the treaty.
    Second, the administration should contact Russia, Belarus, 
Kazakhstan and Ukraine and convene a meeting of the Special 
Verification Commission, established by the INF Treaty in part as a 
venue for addressing INF compliance issues.
    Third, U.S. officials should brief NATO allies, Asian allies 
(particularly Japan and South Korea) and other interested countries, 
including China and India, about U.S. concerns. Were Russia to deploy a 
new ground-launched intermediate-range cruise missile, it would pose a 
direct threat to countries in Europe and Asia. This should not remain 
just a bilateral U.S.-Russian issue; Washington should do what it can 
to make this a question between the Russian government and its 
neighbors--the states that would be directly threatened were Russia to 
deploy new intermediate-range missiles.
    Fourth, the Pentagon could consider a feasibility study on possible 
new U.S. ground-launched intermediate-range missiles. Given budget 
pressures and the current lack of a defined priority military 
requirement, there would be little sense in proceeding to develop or 
acquire such missiles. However, the prospect of a future Pershing III 
or new ground-launched intermediate-range cruise missile might remind 
Moscow of the value of the INF Treaty.
    While pursuing these steps, it would be in the U.S. interest to 
continue to observe the INF Treaty. Although at some later date it 
might be appropriate to consider withdrawal, for example, if Russia 
deployed intermediate-range missiles, at this point there are sound 
reasons for continuing to adhere to the treaty:
    First, if Washington withdrew from the treaty, it could be seen as 
responsible for ending the agreement. Moscow would certainly prefer 
that Washington initiate withdrawal and take the political heat for 
ending the treaty, and it would do everything in its power to place the 
blame on the United States.
    Second, a U.S. withdrawal that ended the treaty would leave Russia 
free to test, produce and deploy ground-launched intermediate-range 
ballistic and cruise missiles without constraint. That would increase 
the threat to and raise concern on the part of U.S. allies.
    Third, at present, the Pentagon has no plans for ground-launched 
intermediate-range ballistic or cruise missiles. A U.S. withdrawal from 
the treaty would leave Russia free to deploy missiles for which the 
United States has no counterpart.
    Developing new U.S. intermediate-range missiles would take time and 
would impose a new burden on an already stretched Pentagon budget. It 
would draw funds from other defense accounts, such as the modernization 
of strategic nuclear forces, missile defense or new conventional 
weapons systems.
    Fourth, even if the United States were to build new ground-launched 
intermediate-range missiles, it is not clear where it would deploy 
them. Those missiles would pose a serious response to a Russian treaty 
violation only if deployed in Europe, Japan or South Korea, but it is 
unlikely that any of those allies would welcome the prospect of hosting 
such missiles. Deploying intermediate-range missiles in the continental 
United States would make little sense, as they could only hold targets 
in the Western Hemisphere at risk.
    Mr. Cooper. How did the administration deal with the ABM Treaty 
violations, and what was the outcome?
    Ambassador Pifer. (I understand this to refer to the Reagan and 
George H. W. Bush administrations.)
    The Reagan administration had several concerns regarding Soviet 
compliance with the 1972 Anti-Ballistic Missile (ABM) Treaty and its 
1974 protocol. The primary concern dealt with Soviet construction of a 
large-phased array radar near Krasnoyarsk in central Siberia.
    The ABM Treaty and its protocol limited the United States and 
Soviet Union each to one ABM interceptor deployment area. In order to 
ensure that large phased-array radars (LPARs) located outside 
deployment areas would be used for permitted early warning purposes but 
not for battle management (i.e., guiding ABM interceptors to their 
targets), the treaty required that LPARs outside of the deployment 
areas be located on the periphery of a country's territory and oriented 
outward.
    In 1983, the U.S. intelligence community detected construction of 
an LPAR at Krasnoyarsk. The radar was more than 800 kilometers (500 
miles) from the Russian-Mongolian border and, instead of being oriented 
outward--i.e., toward the south--it faced to the east, over a broad 
expanse of Soviet territory.
    The Reagan administration judged that the radar constituted a 
violation of the ABM Treaty. U.S. officials raised the radar at the 
fall 1983 session of the Standing Consultative Commission, the body 
established by the ABM Treaty to address, among other issues, questions 
about treaty compliance.
    The Soviets asserted that the Krasnoyarsk LPAR would be used for 
space-tracking purposes, an implausible claim given that few space 
orbits would pass through the radar's field of view. However, the LPAR 
did have an excellent view of the attack corridor for U.S. submarine-
launched ballistic missiles flying out of the northern Pacific Ocean to 
targets in the central Soviet Union. The radar plugged a gap in the 
Soviets' early warning radar coverage; to gain the same early warning 
coverage without violating the ABM Treaty, the Soviets would have had 
to build two LPARs in the Soviet Far East.
    A January 1984 White House report to Congress assessed that the 
Krasnoyarsk LPAR ``constitutes a violation of legal obligations under 
the Anti-Ballistic Missile Treaty of 1972 in that in its associated 
siting, orientation and capability, it is prohibited by this Treaty.'' 
U.S. officials continued to press the Soviets on the radar.
    The Reagan administration later considered declaring the radar a 
``material breach'' of the ABM Treaty, a term that would have provided 
stronger grounds for withdrawal from the treaty. But Washington did not 
withdraw.
    In 1989, the Soviets conceded that the radar was a ``technical'' 
violation of the ABM Treaty in that its location was inconsistent with 
the treaty's requirements. They argued that the radar was for early 
warning purposes (likely true, though that did not make the radar 
compliant with the letter of the treaty). In 1990, the Soviets agreed 
to dismantle the radar--seven years after the U.S. intelligence 
community first detected it.
    Over the seven years between the discovery of the Krasnoyarsk 
radar's construction and the Soviet decision to dismantle it, the 
Reagan and George H. W. Bush administrations continued to observe the 
ABM Treaty, even as they raised their concerns about the radar and its 
compliance with the treaty. They also continued to observe other arms 
control agreements. The Reagan administration, which considered the 
1979 Strategic Arms Limitation Treaty II (SALT II) ``fatally flawed,'' 
observed a policy of not undercutting that unratified treaty until late 
1986.
    Moreover, the Reagan administration also continued to negotiate new 
nuclear arms control agreements with the Soviets. The Reagan 
administration concluded the INF Treaty in 1987. It made major progress 
on the START I Treaty, reaching agreement on the levels of strategic 
forces to be allowed each side. The George H. W. Bush administration 
completed and signed START I in 1991.
    Mr. Cooper. Why should we abide by the Treaty if Russia is 
unwilling?
    Ambassador Pifer. If Russia proceeds to violate the INF Treaty by 
deploying ground-launched intermediate-range ballistic and/or cruise 
missiles, it may make little sense for the United States to continue to 
abide by its terms. The current public charge is that Russia violated 
the treaty by testing a prohibited ground-launched cruise missile. The 
U.S. government has not charged, at least not publically, that Russia 
has deployed such missiles.
    Any violation of a treaty needs to be taken seriously. Given that 
continued application of the INF Treaty is in the security interest of 
the United States and its allies, the U.S. government's goal now should 
be to get Russia back into full compliance with the treaty. I have 
outlined in my response to QFR #51 recommendations as to steps that 
Washington should take to achieve this.
    If the United States were now to withdraw from the INF Treaty, it 
could have several effects, all negative for the United States. 
Washington rather than Moscow could bear the political costs of ending 
the treaty. A U.S. withdrawal that ended the treaty would leave Russia 
free to test, produce and deploy intermediate-range missiles without 
constraint. As the Pentagon has no plans for land-based intermediate-
range ballistic or cruise missiles, a U.S. withdrawal from the treaty 
would leave Russia free to deploy missiles for which the United States 
has no counterpart. Even were the United States to build a counterpart, 
it is not clear it could deploy such missiles within range of Russia.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. If there were no INF Treaty, would we deploy 
intermediate-based land systems in Europe, and would the NATO allies 
support such a deployment? And, if there were no INF Treaty, would we 
deploy land-based systems in Asia, or are sea-based systems sufficient 
to meet our growing needs there?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. Why is it taking us so long to determine what Russia 
is doing, and whether or not it is in compliance with the treaty?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. What might Russia do if it were no longer bound by the 
INF Treaty? What might they develop and deploy if they were totally 
freed from the limits?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. Are our allies paying attention to this issue, how 
have NATO countries responded? How would that affect U.S. and allied 
security (in both Europe and Asia)?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. If there were no INF Treaty, would we deploy 
intermediate-based land systems in Europe, and would the NATO allies 
support such a deployment? And, if there were no INF Treaty, would we 
deploy land-based systems in Asia, or are sea-based systems sufficient 
to meet our growing needs there?
    Mr. Thomas. In the 1980's, in response to Russia's build up of 
IRBMs and GLCMs, NATO allies supported the development and deployment 
of U.S. IRBMs and GLCMs in Europe. Paradoxically, it was their 
deployment that ultimately drove the Soviet Union back to the 
negotiating table, resulting in the 1987 INF Treaty that eliminate all 
ground-launched missiles with ranges between 500-5,500 km. If Russia 
were to again develop and deploy intermediate range missile systems 
that could threaten European allies, it stands to reason that U.S. 
allies might again welcome and host U.S. land-based intermediate- range 
systems in response.
    In Asia, the principle missile threat to our allies comes not from 
Russia but from China, which has already deployed hundreds of 
intermediate-range missiles that can hold allied territory at risk. 
Those countries might similarly welcome conventionally armed 
intermediate-range missiles that could have a stabilizing effect on the 
regional military balance.
    Sea-based systems, given the inherent payload limitations of 
submarines and surface combatants, are unlikely to be able to fully 
meet our growing needs for conventional strike capacity in the Asia-
Pacific theater. Nevertheless, sea-launched and air-launched long-range 
conventional strike systems--both standoff and penetrating--remain 
essential as part of an appropriate mix of capabilities for deterrence.
    Ms. Sanchez. What might Russia do if it were no longer bound by the 
INF Treaty? What might they develop and deploy if they were totally 
freed from the limits?
    Mr. Thomas. Unconstrained by the INF Treaty, Russia could build up 
and deploy large numbers of intermediate-range missiles to hold at risk 
targets both in Europe and in Asia. Interestingly, a sizable deployment 
of Russian missiles into its Far East would likely be of greatest 
concern to China. Thus, the demise of the INF Treaty could create a 
``double jeopardy'' problem for China.
    Ms. Sanchez. Are our allies paying attention to this issue, how 
have NATO countries responded? How would that affect U.S. and allied 
security (in both Europe and Asia)?
    Mr. Thomas. NATO is alive to the Russian INF Treaty violation. As 
NATO Secretary General Fogh Rasmussen said on July 30, ``Russia should 
work constructively to resolve this critical Treaty issue and preserve 
the viability of the INF Treaty by returning to full compliance in a 
verifiable manner.'' In Asia, to date, I am not aware of any public 
response by our allies. Given that they also have clear interests at 
stake, they should also weigh in on the issue.
    Ms. Sanchez. If there were no INF Treaty, would we deploy 
intermediate-based land systems in Europe, and would the NATO allies 
support such a deployment? And, if there were no INF Treaty, would we 
deploy land-based systems in Asia, or are sea-based systems sufficient 
to meet our growing needs there?
    Ambassador Pifer. As far as I am aware, the Pentagon does not have 
an identified military requirement for a new ground-launched 
intermediate-range ballistic or cruise missile. Were there to be no INF 
Treaty, it would be prudent, before building such missiles, for the 
U.S. government to determine the military requirement and also to 
ascertain whether allies in Europe or Asia would be prepared to host 
such missiles. If based in the continental United States, intermediate-
range missiles could only hold at risk targets in the Western 
Hemisphere; there does not appear to be a military requirement for 
that.
    My assessment is that it would not be easy to find allies willing 
to host U.S. ground-launched intermediate-range missiles on their 
territory.
    U.S. deployment of INF missiles (Pershing IIs and ground-launched 
cruise missiles) to Europe in the 1980s was a key factor in motivating 
Moscow to agree to ban intermediate-range missiles. But deployment in 
Europe was by no means guaranteed; in the end, it proved a close thing. 
Some U.S. officials at the time feared that deployment could tear NATO 
apart.
    Today, it is not clear that any NATO members would be eager to host 
such missiles, especially if they were nuclear-armed. Those allies most 
likely to offer to accept U.S. intermediate-range missiles would be in 
Central Europe. Deployment there, however, would put the missiles in 
places where they would be more vulnerable to a preemptive strike. Such 
deployments would also be hugely provocative to Moscow--and would 
probably be opposed by some NATO members.
    I do not believe the United States would find takers for ground-
launched intermediate-range missiles in Asia, either. Japan would worry 
about the effect of such deployments on its relationship with Russia 
and, in any case, would not accept nuclear-armed missiles. South Korea 
is building its own missiles to hold targets in North Korea at risk and 
would fear that deployment of U.S. missiles on its territory would 
disrupt its warming relations with China.
    Ms. Sanchez. Why is it taking us so long to determine what Russia 
is doing, and whether or not it is in compliance with the treaty?
    Ambassador Pifer. I have not been a part of the U.S. government 
process regarding Russia's INF Treaty violation and do not know why it 
took until July to reach a compliance judgment.
    Ms. Sanchez. What might Russia do if it were no longer bound by the 
INF Treaty? What might they develop and deploy if they were totally 
freed from the limits?
    Ambassador Pifer. I believe that, if Russia were no longer bound by 
the INF Treaty, the Russians would give serious consideration to 
building and deploying intermediate-range ballistic and/or cruise 
missiles. Senior Russian officials over the past decade have publicly 
questioned whether continued adherence to the INF Treaty was in 
Russia's interest. They have noted that other countries--countries 
closer (in most cases, much closer) to Russia than to the United 
States--possess or are developing intermediate-range missiles, which 
the INF Treaty bans Russia from having.
    Were Russia to be freed from the INF Treaty's limits, some Russian 
officials would almost certainly argue for developing and deploying 
intermediate-range missiles to counter those deployed or being 
developed by third countries. Some Russian officials might also see new 
intermediate-range missiles as having utility in politically 
intimidating U.S. allies in Europe or Asia, just as the Soviets used 
the SS-20 in the early 1980s.
    Ms. Sanchez. Are our allies paying attention to this issue, how 
have NATO countries responded? How would that affect U.S. and allied 
security (in both Europe and Asia)?
    Ambassador Pifer. Following release of the State Department's 
compliance report on July 29, the NATO Secretary General released a 
statement on July 30 in which he said that the United States had 
briefed NATO on its determination regarding Russia's violation of the 
INF Treaty, termed the treaty a ``key element of Euro-Atlantic 
security,'' and called on Russia to work constructively to resolve the 
issue and return to full treaty compliance.
    The Polish foreign ministry also released a statement on July 30 
that noted that the INF Treaty ``is one of the foundations of the arms 
control and nuclear disarmament regime,'' said that ``its undermining 
would represent a serious challenge to Europe's security,'' and called 
on Russia to explain the issue and return to observance of the treaty. 
The statement also noted Poland's intention to consult with NATO allies 
on the issue.
    The September 4-5 NATO summit declaration stated that ``it is of 
paramount importance that disarmament and non-proliferation commitments 
under existing treaties are honored, including the Intermediate-Range 
Nuclear Forces (INF) Treaty, which is a crucial element of Euro-
Atlantic security. In that regard, Allies call on Russia to preserve 
the viability of the INF Treaty through ensuring full and verifiable 
compliance.''
    As noted in my response to QFR #51, I believe the United States 
should engage allies in Europe and Asia (and others, such as China) on 
this issue with the objective of multilateralizing the question. Rather 
than leaving this as just a U.S.-Russia issue, Washington should seek 
to mobilize other countries--particularly those states in Europe and 
Asia that would be directly threatened were Russia to build new 
intermediate-range missiles--to make their concerns known directly to 
Moscow.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Do you believe the U.S. has adequate verification 
measures in place to detect cheating of nuclear arms control 
agreements? Is verification important?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Garamendi. Do you believe the U.S. has adequate verification 
measures in place to detect cheating of nuclear arms control 
agreements? Is verification important?
    Mr. Thomas. Verification is absolutely crucial. When it comes to 
the INF Treaty, once the weapons were verified to have been destroyed, 
verification monitoring was curtailed. One lesson from the INF Treaty 
experience is the need for continued inspections and monitoring to 
detect testing or reconstitution of programs after systems have been 
eliminated.
    Mr. Garamendi. What is the significance of a violation of that 
treaty? Please define, as you understand it, the difference between a 
treaty ``violation'' and a ``material breach''?
    Ambassador Pifer. I understand the difference between ``violation'' 
and ``material breach'' to be as follows:
    ``Violation'' refers to any activity that is inconsistent with a 
treaty's requirements and obligations. A violation can be major or 
minor. For example, the 1991 START I Treaty limited the United States 
and Soviet Union (later Russia) each to no more than 1600 deployed 
ICBMs, SLBMs and heavy bombers after December 5, 2001. Had Russia after 
that date deployed 2000 ICBMs, SLBMs and heavy bombers, that would have 
constituted a major violation of the treaty. START I's Conversion and 
Elimination Protocol required that ICBM silos, if eliminated by 
explosion, have the top six meters of their headworks destroyed. If a 
side had destroyed only the top five meters of the headworks, that 
would have constituted a violation, though it almost certainly would 
have rendered the silo inoperable, thus achieving the treaty's purpose.
    ``Material breach'' refers to a major violation of a treaty 
provision(s) that is core to the purpose of the treaty. Material breach 
would normally be invoked by a party to the treaty in preparation for 
withdrawing from the treaty or suspending it.
    Mr. Garamendi. Do you believe the U.S. has adequate verification 
measures in place to detect cheating of nuclear arms control 
agreements? Is verification important?
    Ambassador Pifer. Verification is critical to any arms control 
agreement. It is my understanding that, before signing an arms control 
treaty, the U.S. Intelligence Community conducts a review to ensure 
that the verification and monitoring measures are appropriate to the 
agreement.
    This does not mean that the United States has--or needs to have--
the capability to detect every violation of an agreement. Doing so 
would require extremely intrusive monitoring measures that likely would 
not prove acceptable to the Russian or U.S. militaries.
    I support the standard of ``effective verification'' articulated by 
Ambassador Paul Nitze in the 1980s. Ambassador Nitze called a treaty 
effectively verifiable as long as ``if the other side moves beyond the 
limits of the treaty in a militarily significant way, we would be able 
to detect such violation in time to respond effectively, and thereby 
deny the other side the benefit of the violation.'' The focus is not on 
detecting every violation but on detecting those that are militarily 
significant and doing so in time to ensure an adequate response so that 
U.S. security is not degraded.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
